<html>
<title> - INITIAL OBSERVATIONS OF THE NEW LEADERSHIP AT THE U.S. BORDER PATROL</title>
<body><pre>[Senate Hearing 114-738]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 114-738

  INITIAL OBSERVATIONS OF THE NEW LEADERSHIP AT THE U.S. BORDER PATROL

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             SECOND SESSION

                               __________

                           NOVEMBER 30, 2016

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

        
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       
        
        
                  U.S. GOVERNMENT PUBLISHING OFFICE                    
25-161 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f493849bb4978187809c919884da979b99da">[email&#160;protected]</a>       
        
        
        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                  Christopher R. Hixon, Staff Director
         Brooke N. Ericson, Chief Counsel for Homeland Security
           Jose J. Bautista, Senior Professional Staff Member
   Servando H. Gonzales, U.S. Customs and Border Protection Detailee
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
               Holly A. Idelson, Minority Senior Counsel
     Stephen R. Vina, Minority Chief Counsel for Homeland Security
                     Laura W. Kilbride, Chief Clerk
                            
                            
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Carper...............................................     2
    Senator Portman..............................................    15
    Senator Baldwin..............................................    18
    Senator Ayotte...............................................    19
    Senator Booker...............................................    21
    Senator Ernst................................................    23
    Senator Peters...............................................    26
    Senator Tester...............................................    29
    Senator Lankford.............................................    32
    Senator Heitkamp.............................................    35
Prepared statements:
    Senator Johnson..............................................    43
    Senator Carper...............................................    44

                                WITNESS
                      Wednesday, November 30, 2016

Mark A. Morgan, Chief, U.S. Border Patrol, U.S. Customs and 
  Border Protection, U.S. Department of Homeland Security........     6
Carla Provost, Deputy Chief, U.S. Border Patrol, U.S. Customs and 
  Border Protection, U.S. Department of Homeland Security........     8

                     Alphabetical List of Witnesses

Morgan, Mark A.:
    Testimony....................................................     6
    Joint prepared statement.....................................    46
Provost, Carla:
    Testimony....................................................     8
    Joint prepared statement.....................................    46

                                APPENDIX

Chart............................................................    57
Chart............................................................    58
Chart............................................................    59
National Treasury Employees Union Statement for the Record.......    61
Response to post-hearing questions for the Record from:
    Mr. Morgan and Ms. Provost...................................    64

 
  INITIAL OBSERVATIONS OF THE NEW LEADERSHIP AT THE U.S. BORDER PATROL

                              ----------                              


                      WEDNESDAY, NOVEMBER 30, 2016

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, McCain, Portman, Lankford, 
Ayotte, Ernst, Carper, McCaskill, Tester, Baldwin, Heitkamp, 
Booker, and Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing of the Senate 
Homeland Security and Governmental Affairs Committee (HSGAC) is 
called to order.
    I want to welcome the witnesses. Certainly, thank you for 
your testimonies and your time here, today--the Chief and the 
Deputy Chief of the U.S. Border Patrol (USBP). I am definitely 
interested in what you have to say.
    I decided to hold this hearing, actually, before the 
election, as we were monitoring the renewed crisis--I do not 
think the crisis ever went away, but, certainly, we have not 
been seeing the publicity about the unaccompanied alien 
children (UACs) coming in from Central America, which is pretty 
much at 2014 levels--just not being publicized. But, you, of 
course, are having to deal with it, so I think we want to 
really kind of highlight that.
    And, based on the election, I am also encouraged by the 
fact that I think we will have an incoming Administration that 
will be definitely dedicated and committed to securing the 
border, which we must do.
    So, I want to get your initial observations of where you 
think we are at, in terms of border security, and get some 
initial thoughts on what we need to do to actually secure the 
border and honor that commitment.
    I do not want to take a whole lot of time. We do have a 
couple of charts here, just laying out the problem. The first 
is just a chart of the history\1\, from 2009 through last 
fiscal year (FY), of the number of UACs that have come in from 
Honduras, Guatemala, and El Salvador. And, you can see, prior 
to Deferred Action for Childhood Arrivals (DACA), we were at 
pretty low levels--somewhere around 3,000 to 4,000 UACs from 
Central America. In 2012, we went to 10,000. Deferred Action 
for Childhood Arrivals was implemented. All of a sudden, we 
hopped to 20,000, then 51,700, and back down a little bit in 
2015. But, we are up there--almost to 50,000 in 2016. And, the 
initial starting months here, in 2017, do not look encouraging 
either.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 57.
---------------------------------------------------------------------------
    So, it is a real problem, but it is not the only problem, 
because, as our second chart\1\ shows, in addition to the 
incentives that we create in our law for UACs coming from 
Central America, now we see family units coming as well. And, 
those numbers of people coming in, as family units, actually 
exceeds the number of UACs. And, my concern is, we are not 
publicizing it, because the Border Patrol has been so humane 
and so effective at apprehending, processing, and dispersing. 
So, we have dispersed well over 120,000 UACs to all points in 
the United States. We actually have a chart\2\ here for Members 
to see, where the 120,000--it is really about 130,000 UACs that 
have been dispersed around the country. I have Members' States 
in yellow, so you can see how many UACs have been relocated 
into your States. That is the kind of information we have.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 58.
    \2\ The chart referenced by Senator Johnson appears in the Appendix 
on page 59.
---------------------------------------------------------------------------
    I do ask unanimous consent (UC) that my written statement 
be entered into the record.\3\
---------------------------------------------------------------------------
    \3\ The prepared statement of Senator Johnson appears in the 
Appendix on page 43.
---------------------------------------------------------------------------
    I do want to take this moment to, certainly, thank Senator 
Ayotte for her dedicated service on this Committee. I think I 
speak for all of the Committee Members when I say we will 
definitely miss you and your participation here, on this 
Committee and in the Senate. And, we, certainly, wish you well 
in the next chapter of your life--in your next career. So, 
thank you for your service.
    With that, I would like to turn it over to Ranking Member 
Senator Carper.

             OPENING STATEMENT OF SENATOR CARPER\4\

    Senator Carper. If I could just follow up, I was fortunate 
this morning to run into Senator Ayotte and a couple of our 
colleagues in the Senate dining room with Ali Mayorkas, who 
just stepped down as Deputy Secretary of the Department of 
Homeland Security (DHS). And, I am reminded, just on the heels 
of what our Chairman has said about Kelly, that, right after 
World War II, the British won--with a lot of help from us--and 
Winston Churchill, you will recall, was the Prime Minister (PM) 
of the country and, literally, carried them on his back through 
the war. And, 6 months later, he lost reelection. He was not 
reelected. And, one reporter said to him, at the time, ``For 
you, Mr. Churchill, is this the end?'' And, he replied, 
famously, ``This is not the end. This is not the beginning of 
the end. This is the end of the beginning.'' And, it has been a 
joy to serve with you. And, thank you for your service. It has 
been great having been on this Committee. And, for you, my 
friend, this is the end of the beginning.
---------------------------------------------------------------------------
    \4\ The prepared statement of Senator Carper appears in the 
Appendix on page 44.
---------------------------------------------------------------------------
    With that having been said, that is all I had to say--no, I 
have more to say than that. But, I want to start this morning 
by thanking you, Mr. Chairman, for bringing us together, and 
our witnesses for joining us, today. You take on tough jobs--
really important jobs, hard jobs, and challenging jobs. But, I 
am impressed with you, I am impressed with the folks that you 
lead, and we are grateful for your service. Many times, I have 
been down to the border--sometimes with this guy and sometimes 
with others on our Committee--and I look forward to being back 
there--maybe with you--in the not too distant future.
    It has always been an important issue for this Committee 
and it is an important issue to me. It has commanded particular 
attention during the time I have been privileged to be Chairman 
and Ranking Member as well as just a Member of this Committee. 
I think everybody, certainly, in this room--and I think most 
people in this country--want stronger borders. If we do not 
have strong borders, we have a real problem. And, we all want 
to keep terrorists out of this country. But, we also need to 
remain clear-eyed about some of the other real risks and real 
solutions--and I always like to focus on the real solutions, 
the root causes, and how to address those root causes.
    Unfortunately, during this past campaign season--which, 
thankfully, is over--immigrants and refugees were too often 
unfairly attacked as a grave threat to our country--in many 
cases where they are not. We heard a lot about walls and 
deportations, and not enough about addressing the underlying 
causes of the real immigration challenges that we face. As a 
result, too many immigrants, who have come to the United States 
from all corners of the globe, are anxious that they will no 
longer be able to care for their families and contribute to our 
great country. This includes the ``Dreamers'' who were brought 
here as children, but are now fearful of being pulled from 
jobs, pulled from their schools, and deported to countries they 
may not even remember. And, I just do not think we strengthen 
our country by ignoring the contributions of immigrants or by 
turning our backs on refugees.
    Helping vulnerable people is part of our moral fabric as a 
country. Scripture teaches us that we have a moral imperative 
to the ``least of these'' in our society--``When I was a 
stranger in your land, did you take me in? ''--and to treat 
other people the way we want to be treated. Doing so also 
contributes directly to our economic strength. For generations, 
our open and diverse society has attracted immigrants of all 
backgrounds, who have continually enriched our country and 
helped us to grow and to prosper. The deeply troubling attack 
this past week at Ohio State University (OSU), where I was once 
a Navy Reserve Officers Training Corps (ROTC) midshipman, many 
years ago, weighs heavily on my mind and on the minds of many 
across this country. It reminds us that we must continue to be 
eternally vigilant. We must work hard to meet both our security 
challenges as a Nation and our moral imperatives. And, indeed, 
I believe we can do both--and I believe we must do both.
    Before I highlight some of the tools that I believe can 
help better secure our borders, I think it is important to, 
first, recognize the significant strides we have already made 
along our Southwestern border. This is thanks to the efforts of 
a lot of people, including the folks you lead. For years, we 
worried about large-scale undocumented migration from Mexico. 
Now, experts tell us that there are more Mexicans going back 
into Mexico, from the United States, than Mexicans coming out 
of Mexico into the United States, and that net migration is 
less than zero. The men and women at U.S. Customs and Border 
Protection (CBP) deserve a lot of the credit for that turn 
around, but, perhaps, the biggest factor for the change is the 
strengthening of the Mexican economy. They have a strong, 
vibrant middle class there, and it helps hugely. That is an 
important thing to keep in mind, as we talk about whether to 
reopen trade agreements in the region.
    The surge we are seeing today, along our Southwestern 
border, right now, is a different challenge--and it is mostly a 
humanitarian one, as you know. Thousands of kids and their 
families, from El Salvador, Guatemala, and Honduras--most of us 
have been to those countries, which we call ``the Northern 
Triangle''--they are fleeing extreme violence and poverty in 
their home countries and are seeking asylum in the United 
States. We are complicit in their misery--and the Chairman has 
said this again and again--by virtue of our addiction to drugs. 
They send us drugs, we send them guns and we send them money. 
And, the people face lives of misery down there--horror down 
there--and they want to get out and they want to come here to 
be safer.
    Haitian migrants, on the other hand, including many who had 
been living and working in Brazil until its recent economic 
decline, are another new concern, as we know. Most of these 
migrants are turning themselves in to agents--not trying to 
evade the agents that work for you--so it is unlikely that we 
will fix these current challenges with a wall--or even with 
more Border Patrol agents (BPAs). Instead, we must address the 
root causes of this migration by helping the governments of El 
Salvador, Guatemala, and Honduras improve the desperate 
conditions that too many of their citizens face every day. When 
I am down there, I always talk about Home Depot to the folks in 
those countries. I say, ``You can do it, Honduras, Guatemala, 
and El Salvador. We can help. We cannot do it for you. You have 
to do it. But, we have an obligation to help, because we are 
complicit in your misery.''
    I traveled to the Northern Triangle, once again, this past 
October. And, I saw real efforts being made by the governments 
there to address the extreme poverty, violence, and 
hopelessness that drive so many of their citizens to make the 
dangerous journey across Mexico to our border. Last year, 
Democrats and Republicans provided about $750 million to 
support these countries, as they work to address these 
difficult conditions. I hope we can continue this bipartisan 
support. They have to do their share. Actually, they have to do 
a lot more of the heavy lifting than we do. But, if they do, 
then we have an obligation--I think a moral obligation--to help 
them. But, I believe it is cost-effective and the right thing 
to do, given that our addiction to drugs fuels so much of the 
lawlessness and instability in that region.
    We also have to work with our international partners to 
crack down on smugglers and traffickers who exploit migrants. I 
have been impressed, for example, with the vetted units that I 
have seen during my trips to the Northern Triangle--where our 
agents and our officers work side by side with foreign officers 
to target and break up criminal trafficking networks. Of 
course, as the cartels become more sophisticated, we must also 
continue to evolve and take action here, at home. That is why I 
have supported commonsense and cost-effective solutions to 
strengthen our border security--and will continue to do so. 
That includes investments in advanced surveillance 
technologies, such as aerostats and drones, which, if used 
effectively, can be powerful force multipliers for our agents 
and others as well, as you know. It also includes resources, 
such as horses--remember the horses we saw down there?--and all 
kinds of boats, which may not be as high-tech, but can provide 
our agents with greater visibility across the border. Another 
common-sense solution involves fully staffing our ports of 
entry (POEs) and making smart investments in our aging port 
infrastructure.
    Finally, I would be remiss if I did not discuss how 
comprehensive immigration reform can also be a critical force 
multiplier. I believe it can be and it should be. And, the idea 
of a worker program, where the folks--a lot of people down 
there do not want to come here and live permanently. They would 
like to be able to travel back and forth--work and go home 
again. And, they sometimes get stuck up here. And, they, 
frankly, find it hard to get back down there and back up here. 
So, I think comprehensive immigration reform would help on 
that.
    As Republican and Democratic Administration officials have 
testified over the years, immigration reform would create legal 
channels for migration and ``shrink the haystack'' of 
unauthorized travelers, so that border agents can focus on the 
most significant security risks.
    Lastly, comprehensive reform would also strengthen us 
economically. According to the Congressional Budget Office 
(CBO)--not me--none of us--but the Congressional Budget Office, 
which is nonpartisan--comprehensive immigration reform would 
provide a 5.4-percent boost in gross domestic product (GDP)--we 
could use that--more than $1 trillion dollars, by 2033. We 
should all keep this in mind as we head into the next Congress.
    Thank you, again, to you both for being here and for your 
leadership. And, Mr. Chairman, thank you for pulling this 
together today.
    Chairman Johnson. Thank you, Senator Carper. And, I would 
be remiss if I did not also thank you for just your partnership 
over the last 2 years. As Ranking Member--and as a bipartisan 
Committee--we actually keep track of this--we have passed 83 
pieces of legislation out of this Committee--most of it 
unanimously. We are up to, I think, over 30 pieces of 
legislation having been signed into law now, in some way, 
shape, or form. That is a pretty good record. I think I have 
certainly valued the example that Senator Joe Lieberman and 
Senator Susan Collins set, when I first joined this Committee--
certainly which you and Senator Tom Coburn set. And, we have, I 
think, continued that tradition. So, I am going to miss you as 
my Ranking Member. And, I look forward to working with my 
next--Senator McCaskill is not here, but apparently she is 
going to be my Ranking Member. And, I certainly wish you well 
in your new assignment as well.
    Senator Carper. Thank you. I promise not to go far.
    Chairman Johnson. OK.
    Senator Carper. It has been a pleasure to be here.
    Chairman Johnson. You are still going to be on the 
Committee.
    Senator Carper. A pleasure to be your wingman--you bet--and 
to serve with everybody. This is a good group.
    Chairman Johnson. We also have members, Chris Cabrera and 
other members of the National Border Patrol Council (NBPC)--and 
we appreciate their attendance, as well as look forward to 
working with them, again, to make that commitment to secure our 
border, in 2017 and beyond.
    It is the tradition of this Committee to swear in 
witnesses, so if you will both rise and raise your right hand. 
Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Morgan. I do.
    Ms. Provost. I do.
    Chairman Johnson. Please be seated.
    Our first witness is Mark Morgan. Mr. Morgan is the current 
Chief of the U.S. Border Patrol at U.S. Customs and Border 
Protection, within the Department of Homeland Security. Chief 
Morgan is the first person from outside of the Agency to be 
appointed Chief of the U.S. Border Patrol. He began his career 
in Federal law enforcement in 1996, as a Special Agent at the 
Los Angeles (L.A.) Field Office of the Federal Bureau of 
Investigation (FBI). During his tenure with the FBI, he held 
numerous key leadership positions. And, in a little more full-
blown biography here, I see that he supervised an FBI-led 
hispanic gang task force that focused on the emerging presence 
of two organized and violent transnational gangs in Southern 
California: Mara Salvatrucha (MS-13) and the 18th Street gang. 
I think that relates directly to a lack of border security, so 
we will probably want to ask some questions on that.
    Chief Morgan, you have the floor.

TESTIMONY OF MARK A. MORGAN,\1\ CHIEF, U.S. BORDER PATROL, U.S. 
  CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Morgan. Good morning. Chairman Johnson, Ranking Member 
Carper, and distinguished Members of the Committee, thank you 
for the opportunity to allow us to talk, today, about the 
United States Border Patrol.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Mr. Morgan and Ms. Provost 
appears in the Appendix on page 46.
---------------------------------------------------------------------------
    During my first 4 months as Chief, I have had the privilege 
to travel to 11 sectors to meet with thousands of United States 
Border Patrol agents, staff, and leadership from the Northern, 
Southern, and Coastal borders, as well as the United States 
Border Patrol Academy headquarters, here in D.C., the K9 
training facility, and our Special Operations Group (SOG) in El 
Paso.
    In all of these interactions across the country, one thing 
was consistent and abundantly clear: The men and women of the 
United States Border Patrol have one of the toughest jobs in 
Federal law enforcement. They are the most assaulted Federal 
law enforcement in the United States. More than 7,400 Border 
Patrol agents have been assaulted since 2006. That rose, in 
fiscal year 2016, by 20 percent. Year-to-date (YTD), we are 
seeing an increase of assaults of 200 percent from the previous 
YTD. It is a dangerous job. And, in my short time here, two 
Border Patrol agents have already been killed in the line of 
duty: Agents Manny Alvarez and David Gomez.
    They are faced with unforgiving terrain and weather, 
limited resources, long hours, and adverse conditions. And, 
they are often called upon to go above and beyond what they 
have been trained to do. They are tenacious in their pursuit of 
getting better, they are innovative, and they have a ``can-do'' 
attitude. They are dedicated to the mission, this country, 
themselves, and to doing something greater than themselves. I 
am honored to be serving with them. These are my first--and 
most important--observations in my first 4 months here.
    Therefore, one of my focuses during my tenure, will be to 
continue to be their relentless advocate and to provide them 
with the tools, training, resources, and common-sense policies 
that they need to do their jobs effectively and safely.
    Over my 30-year career, the current challenges we face in 
21st Century contemporary law enforcement are unparalleled. The 
United States Border Patrol team is committed to identifying 
how we can get better and continue to evolve, as an 
organization, to address the challenges we face. Here are just 
a few important areas of focus that I think we need to look at, 
as we move forward:
    Sustain and build the Border Patrol's most valuable asset--
our workforce;
    Focus on recruitment, retention, and diversity;
    Continue to improve on our threat-based, intelligence-
driven, and operationally-focused strategy to increase our 
situational awareness and our competency levels across every 
mile of the United States border;
    Evaluate current policies and laws that directly impact our 
mission to protect our Nation's borders, with an emphasis on 
broadening enforcement operations and increasing consequences 
for those illegally crossing our borders;
    And, reinforce our multilayered enforcement strategy and 
strengthen our situational awareness by continuing smart 
investments in infrastructure, technology, personnel, and 
operational assets.
    The same smart investments in our facilities need to 
continue to be a top priority as well. We need to enhance our 
agility, focusing both on mobile technology and a mobile 
workforce.
    We need to continue to strengthen our enforcement 
operations by expanding our intelligence-driven methodology, 
our counter-network strategies, our Air and Marine Operations 
(AMO), and our integrated operations with our partners, both 
domestically and internationally.
    We need to expand and integrate our information technology 
(IT) systems. We need to focus on the targeted expansion of our 
human intelligence base, our document exploitation capacity, 
and our collection and dissemination capabilities.
    We need to identify personnel needs across the spectrum of 
position classifications to ensure we have the correct balance 
of agents, staff, and intelligence analysts.
    We need to focus and determine alternatives, concerning the 
allocation of resources, in support of the current humanitarian 
mission that the United States Border Patrol is being asked to 
do in an effort to get badges back to the border.
    We need to develop a proactive communication strategy, in 
an effort to engage our internal and external partners and 
stakeholders.
    And, we need to enhance performance metrics to reflect our 
efforts toward our strategy, focusing on threats and our 
mitigation effectiveness.
    As we move forward, we will continue to focus on these 
priority areas--all of which will enhance the United States 
Border Patrol's ability to detect, prevent, and respond to 
threats along our Nation's borders.
    We look forward to sharing our efforts with the Committee 
in the future. I thank you for the opportunity to testify here, 
today, and I look forward to your questions. Thank you.
    Chairman Johnson. Thank you, Chief Morgan.
    Our next witness is Carla Provost. Ms. Provost is the 
current Deputy Chief of the U.S. Border Patrol at U.S. Customs 
and Border Protection, within the Department of Homeland 
Security. Deputy Chief Provost is the first woman to be 
appointed Deputy Chief in the Agency's 92-year history. In her 
20-year career, Deputy Chief Provost has held nearly every 
position in the U.S. Border Patrol, including Chief Patrol 
Agent of the El Centro Sector.
    Deputy Chief Provost.

   TESTIMONY OF CARLA PROVOST,\1\ DEPUTY CHIEF, U.S. BORDER 
PATROL, U.S. CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Ms. Provost. Thank you. Chairman Johnson, Ranking Member 
Carper, and distinguished Members of the Committee, it is a 
privilege to be here, today, alongside Chief Morgan. This is a 
proud moment for me, as this is my first appearance at a 
Congressional hearing, representing the dedicated and 
hardworking men and women of the United States Border Patrol.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Ms. Provost and Mr. Morgan 
appears in the Appendix on page 46.
---------------------------------------------------------------------------
    Though today marks 1 month into my current position as 
Deputy Chief, I have spent the majority of my professional law 
enforcement career--nearly 22 years--serving in the U.S. Border 
Patrol. During that time, I have seen quite an evolution. I 
entered on duty with the Border Patrol in January 1995. And, as 
an agent in the field, in both urban and remote border 
environments, I worked alongside my colleagues to address 
threats ranging from illegal immigration, smuggling, and 
trafficking to terrorism, by targeting, detecting, and 
interdicting potentially dangerous people and materials.
    I was also significantly involved with the training and 
management aspects of Border Patrol operations across four 
different sectors, in all four States along the Southwest 
border, instructing agents in law, firearms, and bike patrol as 
well as directing sector budgets and human resources (HR), 
while overseeing operations.
    When I first came on board, there were less than 5,000 
Border Patrol agents, nationwide. We were still processing on 
typewriters, and correction tape was worth its weight in gold. 
That year, we apprehended nearly 1.3 million people on the 
Southwest border, alone. As you can imagine, we did not possess 
the tools or the technology that agents use, today. Back then, 
it was common for the border to be marked by little more than a 
three-strand barbed wire fence or, in many places, nothing at 
all. We relied on 1960s-era aircraft for aerial support and, 
sometimes, homemade sensors and lighting to notify us of 
illicit activity.
    In the year 2000, we hit our high watermark of more than 
1.6 million apprehensions, nationwide. With that, came a 
renewed focus on border security, and the tragedy of the 
attacks on September 11, 2001 (9/11) only intensified that 
commitment.
    As I progressed, so did the Border Patrol. We began hiring 
new agents in earnest, growing our presence along the border, 
dramatically. Not only did this increase our situational 
awareness, but it also impacted local businesses and the 
economy. Growth in many areas along the border seemed to mirror 
our own. Newer technology, to include sensors, night vision, 
and remote video surveillance, began to improve our 
capabilities. New tools, like tasers and pepperball launching 
systems, gave us new and different approaches for uses of 
force. Thanks to Congress, we received new patrol roads and 
fencing in strategic locations as well as saw improvement in 
many of those already in existence.
    Here in Washington, I led the stand-up of CBP's Use of 
Force Center of Excellence, which is now known as the ``Law 
Enforcement Safety and Compliance Directorate,'' dedicated to 
optimizing the safety, readiness, accountability, and 
operational performance of CBP law enforcement personnel by 
articulating use of force policy and supplying the highest-
quality education and training to our agents and officers.
    I also served as the Deputy Assistant Commissioner of CBP's 
Office of Professional Responsibility (OPR), overseeing 
compliance with all CBP-wide programs and policies relating to 
corruption, misconduct, internal security, and integrity 
awareness. I am proud to have the opportunity to bring my field 
experience and perspective to the U.S. Border Patrol 
headquarters.
    I look forward to working with Chief Morgan and all of my 
colleagues in the Border Patrol, CBP, and our many partners to 
enhance our operations, to protect our Nation's borders, and to 
ensure the safety of the public that we serve.
    Thank you for the opportunity to testify today. I look 
forward to your questions.
    Chairman Johnson. Thank you, Deputy Chief Provost.
    I will start the questioning with Chief Morgan. Obviously, 
I am concerned about the continued flow of UACs for a host of 
reasons. Because we have not ended the incentives for people to 
come into this country illegally, children continue to take the 
very dangerous journey, through Mexico, to come to this 
country. And, lives are being lost and assaults are perpetrated 
on them--and these children become real victims.
    Talk a little bit about how the flow of UACs--how that 
overstresses your resources and how it distracts from your 
other missions.
    Mr. Morgan. Yes, sir. I refer to the Border Patrol's 
involvement with UACs and family units as a humanitarian one, 
at this point. We know that, basically, of the other than 
Mexicans (OTMs)--which now is about 63 percent of our 
apprehensions--to include single family males--focusing on just 
UACs and family units, alone, on the OTM side--it is about 43 
percent or 44 percent of our overall apprehensions. In the Rio 
Grande Valley (RGV), alone, it is probably closer to around 50 
percent. It takes an exorbitant amount of resources and funding 
to sustain those operations, knowing that, basically, 100 
percent of those family units and UACs are released into the 
United States. That is why I call that a humanitarian mission.
    I refer back to midnight one evening when I was in a 
sector, where I saw a 6-year-old and an 11-year-old, who had 
made the trek from Honduras, holding hands. I do not refer to 
that 6-year-old and that 11-year-old as national security or 
law enforcement threats. But, again, the Border Patrol is 
dedicating a tremendous amount of resources to taking those 
folks in and to processing them.
    At times, a lot of resources are dedicated to being 
professional child care providers, at this point. In RGV, 
alone, we have actually just established a second central 
processing center (CPC). Each one of those processing centers 
takes about 100 to 120 agents to man and is dedicated, 
basically 100 percent, to processing and taking care of the 
family units and UACs. We just recently opened up a temporary 
holding facility in Tornillo, Texas to help with that. The 
Ursula facility, in McAllen, Texas--as I know everybody is 
familiar with--that comes at a high cost as well to be able to 
run that facility and provide those resources.
    Recently, when I traveled to RGV, the Patrol Agent in 
Charge (PAC)--the supervisor that was in charge said, ``Chief, 
we are going to do whatever this country asks us to do, but I 
never thought, in my 20 years, that I would be, as part of the 
procurement, ordering baby powder and baby wipes.'' Actually, I 
just came from one sector, where one of the agents' jobs during 
the day is to actually make sure that the food--the burritos 
that were provided--are being warmed properly. It takes a 
tremendous amount of resources to do this.
    Chairman Johnson. Can you talk about the realities on the 
border, when you have a surge--let us say 50 or 100 UACs and 
family members--the way they can be used as a diversion for 
higher-value smuggling, whether it is drug, human, or sex 
trafficking? Is that not the reality of what is actually 
happening?
    Mr. Morgan. Yes, we have information that, absolutely, 
smugglers use that as a distraction. Yes, sir. And, again, the 
resources--it is absolutely impacting--as the Chief of the 
United States Border Patrol, I am comfortable in saying that 
the humanitarian mission--with the UACs and family units--it is 
impacting our ability to perform, I think, our national 
security and law enforcement mission. I am taking a 
considerable amount of resources and agents away from the 
border to take care of this mission.
    Chairman Johnson. This is a problem we have not solved. 
And, I will read a quote from back on July 9, 2014. When 
Chairman Carper, at the time, called a hearing on this. Senator 
Carper said, ``How do we change the mindset, to turn off the 
flow, so the parents will say, `I want my kid to stay here and 
have an opportunity, have a future here'? How do we do that? '' 
And, I think it was the right question, in terms of how do we 
stop the flow. And, I think we probably have some difference of 
opinions, in terms of the effective way to stop the flow. I 
think Senator Carper--again, I would love to improve the 
conditions in Central America, so that there is not the 
incentive--the ``push factor.'' But, I am always talking about 
the ``pull factor.'' And, if we put up our other chart, of just 
UACs, we see that, of the children that have come here 
unaccompanied in 2013, 2014, 2015, and 2016--at least the last 
3 years--we are returning less than 4 percent. And so, is the 
reality not that, if you come as a UAC from Central America, 
and you get into this country--and, by the way, it is easy to 
get in here. You just turn yourself in and you are apprehended, 
you are processed, and you are dispersed. And, they have access 
to social media, so more children and more families in Central 
America realize this--and it creates an incentive: pay the fee 
and take the dangerous journey, because, if you get into 
America, you are going to stay. Is that not an enormous 
problem--and one of the reasons why we have not solved this 
problem?
    Mr. Morgan. Yes, sir. When we talk about ``push-pull 
factors,'' if we go back just a little while, in 2006, 90 
percent of those we were apprehending were Mexican nationals. 
And, now, we are at 36 percent. Why? Well, there are a couple 
of things that happened to explain why we see that dramatic 
decrease. One is a solid consequence delivery system, and there 
are a couple of things that happened.
    One is that we instituted expedited removal (ER), so that 
the individuals knew that, when they came, they were being 
held, and then they were being removed. That was a consequence. 
They knew that. It served as a strong deterrence.
    The other thing--one example is----
    Chairman Johnson. Let me just interrupt you. So, that is 
with Mexicans?
    Mr. Morgan. Yes, sir.
    Chairman Johnson. Or Canadians. But, talk about the 
difference between Mexicans and UACs or family units from 
Central America.
    Mr. Morgan. Yes, sir. So, what is happening with the UACs 
and family units--the OTMs, as we call them, from Central 
America--it is, basically, the same thing--is, right now, they 
know that, if they make it to the border, they will be released 
into the interior of the United States. Generally, that is done 
through a Notice to Appear (NTA). Border Patrol--we do not do 
that. We process them, as we normally do, and then we hand them 
over to the next Agency in the ``whole-of-government 
approach''--and then, that is done. But, that is the reality--
they come to the borders, and they are being released. And, 
what that does is, it sends a strong message to those folks in 
the country that, if you get to the United States border, we 
are going to let you in. So, it is a huge ``pull factor.''
    Chairman Johnson. So, if we would go back to the process of 
expedited removal--with humanity--bring these kids and send 
them right back to Guatemala, Honduras, or El Salvador, we 
would dramatically reduce the incentive--and my guess is, we 
would dramatically reduce the flow. Would you agree with that?
    Mr. Morgan. Yes, sir. And, that is why I was using the 
Mexican national example, because we used that same concept 
and, again, from 2006 we went from 90 percent to 36 percent. We 
reduced that ``pull factor'' by instituting a system of 
consequences and expedited removal.
    Chairman Johnson. Deputy Chief Provost, I do not know 
whether you were involved, but we had a surge from Brazil. And, 
Secretary Michael Chertoff, at the time, had expedited removal. 
And, the surge ended. Is that not correct?
    Ms. Provost. Yes. So, in 2005, we did have a surge from 
Brazil. We had received the authority to conduct expedited 
removal, starting the year prior. We did start utilizing that, 
and when we delivered the consequence of the expedited 
removal--and then, actually, the physical removal to Brazil--
the numbers did decrease.
    Chairman Johnson. OK. Thank you. My time has expired. 
Senator Carper.
    Senator Carper. Thank you. Again, thank you very much for 
your testimonies and for your leadership for a short period of 
time--and actually for a long period of time, Ms. Provost. I 
will reiterate, again, that we need secure borders, and we need 
to have a strong, well-equipped, and well-trained Border Patrol 
force. I believe we have that--and probably the best we have 
ever had--certainly the most expensive we have ever had, 
because of the money that we spend to support the thousands of 
people who work under your leadership.
    I want to tell a quick story. I have told this before. Some 
of my colleagues have heard about it. I want to tell it again. 
Delaware has three counties. John McCain was once in our 
largest county, Sussex County, where we welcomed him, in one of 
his earlier campaigns. And, it is the third largest county in 
the country. We raise more chickens there than in any other 
county in America--and we process a lot of chickens. And, some 
of the folks who process those chickens come from Guatemala. 
And so, we have a significant Guatemalan presence in Sussex 
County.
    Two years ago, when the surge of UACs really got going, I 
was down in Sussex County at a place called La Esperanza--``The 
Hope.'' And, what they do there is, for the folks who show up 
on our doorstep, they try to provide some assistance for them, 
rather than just turn a deaf ear to them.
    During my meeting with them, they told me of a boy--a 
teenaged boy, who had arrived in Sussex County, recently, with 
his sister and their family. They told me this story that he 
told them. He said that, when he was 13 years old, he was 
approached by a gang in Guatemala. And, they said, ``We want 
you to join the gang.'' And, he said, ``Well, let me talk to my 
parents.'' So, he talked his parents, and they said, ``We do 
not want you to be in any gang.'' He ended up talking to the 
gang members--they approached him, again, a couple of weeks 
later, and said, ``We want you to be in our gang. Are you ready 
to join us?'' He said, ``I talked it over with my parents, and 
it is not something I want to do.''
    They did not receive this very well. And, a couple of weeks 
later, they said to him, ``Have you changed your mind?'' He 
said, ``No, I have not.'' And, they said, ``If you do not 
change your mind, somebody in your family is going to die. 
Somebody is going to die.'' He talked to his family. They said, 
``Join the gang.'' And, he joined the gang.
    A couple of months later, for his initiation as a gang 
member, one of the requirements that he had to undertake was to 
rape his 13-year-old sister. That was part of the initiation. 
And, he went home and told his parents. They said to him and 
his sister, ``You are out of here. We are going to get you out 
of this country.''
    I dare say that if any of us lived in that kind of an 
environment with our kids, we would probably want them to be 
out of Guatemala, Honduras, or El Salvador--whatever country it 
was--and into a safer place.
    One of our witnesses--Holly, what was the name of that 
witness? You all may remember Bishop Mark Seitz. He is from El 
Paso, Texas. He was a witness 1 year or 2 years ago. He shared 
this analogy with us. He talked about a house. And, he talked 
about the fire department, and the fire department coming to 
the house and setting the house on fire. The fire department 
setting the house on fire, and then locking the doors and 
driving away. That was the analogy that he used. And, the 
reason why they have the kind of violence down there is, in 
large part, because of us--because of our addiction to drugs 
and the flow of the drugs through those nations. And, they come 
to our borders--and we send them guns and money, as I said 
earlier.
    So, what do we do about that? We have done great stuff on 
the border. We have great representation. You have explained 
some of what we are doing. We can always do more. And, we have 
been very generous, I think, in terms of our support for the 
assets--and whether it is walls, fences, or dirigibles--you 
name it, whatever--unmanned aircraft--all kinds of stuff. But, 
when you have a country where you have 15,000 small businesses 
extorted in a single year--basically, shut down--we know that 
small businesses are where jobs come from, in this country and, 
frankly, in other countries--15,000 shut down, because of 
extortion threats--that is just a loser. And, the kinds of 
threats that I just explained--just from the stories I heard in 
person--that has to be a part of the solution as well. It 
cannot be just us.
    Twenty years ago--Senator McCain will recall that, 20 years 
ago, somebody started ``Plan Colombia''. And, ``Plan Colombia'' 
was not the United States coming down and solving all of their 
problems. ``Plan Colombia'' would say, ``You have a problem 
here, and you have to fix your problem, but we are going to 
help you, because we are complicit''--with our addiction to 
cocaine, at the time. ``We are complicit, and we are going to 
help you as well.''
    So, having said that, there is a reason why--and I think, 
Deputy Chief, you mentioned that, in your first year on the job 
as a Border Patrol Agent--I think you said that there were 1.3 
million people coming across our borders and being taken into 
custody. It peaked at 1.6 million. And, it used to be, in those 
earlier days, that they were mostly Mexican. Today, there are 
more Mexicans going back into Mexico than are coming out. But, 
all of those people are coming out of Honduras, Guatemala, and 
El Salvador. What more can we do to make the ``needle in the 
haystack''--we can make either the haystack smaller or the 
needles bigger, and some of that involves work that is going to 
take place in those three countries. Give us some advice. How 
does comprehensive immigration reform help--particularly, when 
there is a guest worker program, where folks can come up from 
these countries, work for a while, and go back legally? Please.
    Mr. Morgan. First of all, I think Comprehensive Immigration 
Reform (CIR) is definitely needed, and we fully support that. 
You just alluded to a couple of examples of that.
    Absolutely, there are definite ``push factors'': weak 
economies and a weak government. In some cases, violence, 
family reunification, and economic equality are also factors. 
Those are all true, and I agree with that.
    I think, from the United States Border Patrol perspective--
again, I am just looking at the facts--and, like I said, when 
we do institute a really well-thought-out consequence delivery 
system, we do see that positively impacting the flow--meaning 
it does go down. That is definitely factual, and we can show 
that over the years.
    I think we need to have a facilitated discussion as well 
about some current law and policy. And, I can give you one 
example: credible fear. So, we know, right now, that smuggling 
organizations are absolutely using and exploiting a credible 
fear. We know that they are coaching individuals on 
specifically what to say when they come here. They just rattle 
off--and they memorize the magic words that they need to say, 
so that they will fall within the statute of credible fear. We 
think that that is being exploited. We think that it has been 
going far beyond the original intent of the purpose of credible 
fear, like sort of the example you just used. Right? That is 
what credible fear is supposed to be used for, absolutely--but 
we know it is being exploited.
    So, I think that is one thing that we can do, as a part of 
CIR--to take a look at those policies, where it makes sense, 
and try to have a good facilitated discussion. Are there some 
adjustments that need to be done going forward?
    Credible fear, alone--from 2000 to 2013, less than 1 
percent of those coming across were claiming credible fear. 
Today, it has exponentially gone up--and it has continued to 
rise. We see that as an issue.
    Again, going back to the NTA, we know that that is 
definitely a ``pull factor.'' We know that they are 
communicating, and they are like, ``Hey, it does not matter. If 
you get here, you will be released. You say these magic 
words''--even if you do not say the magic words, you are still 
going to be let into this country.
    I think we need to have a discussion about our utilization 
of the NTA, to make sure that we are really applying it where 
it is needed, going forward. I think that needs to be part of 
the facilitated discussion on immigration reform.
    Senator Carper. OK. I am out of time. Mr. Chairman, I would 
just say one last quick sentence, if I could. I have said this 
before. I think it pertains to this discussion and is still 
appropriate, today. No silver bullet to resolve it. No silver 
bullet. A lot of silver BBs. Some are bigger than others--and 
we need to do them all.
    Thank you.
    Chairman Johnson. Thank you, Senator Carper. And, again, I 
really appreciate the well-attended hearing, here. So, let us 
really keep it to 7 minutes. I would ask the Senators as well 
as the witnesses to keep the questions and answers within the 7 
minutes, and we will proceed. And, everybody can have a chance 
to ask questions. Senator Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you, Mr. Chairman. I appreciate you 
having the hearing today, because it is a critical time. And, 
Chief Morgan, welcome to the Committee. And, to you, Deputy 
Chief Provost, and your officers out there, in the field, we 
appreciate what you guys do every day. As we heard earlier, it 
is under tough circumstances. And, to a certain extent, you are 
working under constraints that make it difficult for you to do 
your jobs.
    I am going to change the topic a little bit and talk about 
drugs, and, particularly, the transnational criminal 
organizations (TCOs) that bring those drugs across our border. 
As you know, this Congress--this Senate and the House--has 
acted, and the President has signed legislation called the 
Comprehensive Addiction and Recovery Act (CARA). Senator Ayotte 
has just joined us. She is one of the original co-authors of 
that, and many Members of this Committee have been involved 
with it. It is important legislation. It is groundbreaking. It 
is really historic, in the sense that it focuses a lot on the 
demand side.
    We have had other witnesses before this Committee, who have 
talked about the importance of reducing the demand for drugs. 
It focuses on prevention, education, treatment, and recovery, 
as well as helps to get prescription drugs off of the shelves. 
That is all important. We have an opportunity, in the next 
couple of days here, actually, to look at new legislation to 
put even more money into those efforts--and we all think that 
is important. I believe that is really the core.
    But, there is still a huge issue with these drugs coming 
across the border. We have the opportunity to be able to 
increase the price of these drugs by better enforcement. Some 
statistics that I have seen indicate that we are stopping only 
about 1.5 percent to 2 percent of these drugs that are coming 
across the border.
    Recently, we had testimony before this Committee, 
indicating that about 100 percent of the heroin and about 90 
percent of the cocaine is coming across the border--much of it, 
of course, from Mexico--particularly, with regard to heroin. 
And, even methamphetamines--most of the methamphetamines are 
now coming across the border from Mexico.
    And so, my question to you all is: What can you do better 
to stop these drugs, increase the price, and stop some of the 
consequences of these transnational criminal organizations, 
which not only add to crime here, in this country, but, of 
course, make these other governments--Mexico, Central American 
countries, Colombia, and so on--much more vulnerable to 
corruption? And, frankly, if you look at these numbers, they 
are increasing--not decreasing.
    So, I guess my first question to you is: Are my statistics 
right? Are we only stopping about 1 percent or 2 percent of 
these drugs that are coming over the border--this poison that 
is coming into our communities? Do you think that is accurate?
    Ms. Provost. Sure. First and foremost, I would say that--as 
you know and you mentioned--the amount coming across--we track 
everything that we apprehend. And, you are correct. We are 
having a number of drugs: methamphetamine, heroin, cocaine, and 
marijuana crossing our borders.
    That being said, we use all of the resources that we can, 
to the best of our ability, to try to detect and apprehend--
whether it be at the ports of entry at the border--or Border 
Patrol agents as well, with our multilayered approach, further 
into the country. We use our resources, such as our K9s. We are 
continuously trying to improve the training for our agents, so 
that we are better at interdicting.
    That being said, the unknown is a difficult thing to 
measure for us. We do know that our numbers thus far this year, 
for FY 2017 YTD, everything has been trending down--except for 
methamphetamines, which are up slightly, at this point, year to 
date, compared to FY 2016. But, we will----
    Senator Portman. If I could just interrupt you for a 
second, Deputy, that concerns us, because we see an increase in 
overdose deaths. We are now seeing about 120 people dying a day 
in this country--five a day in my home State of Ohio, alone. 
Everybody on the front lines is saying the same thing, which is 
that it is getting worse--not better. And, this is the source 
of the biggest increase, which is heroin.
    The other one is carfentanil and fentanyl as well as U-
47700 (U4) and the synthetics, which are coming by mail, 
primarily.
    Ms. Provost. Yes.
    Senator Portman. Which you have less control over, although 
you guys hear a lot about that, too. And, the Synthetics 
Trafficking and Overdose Prevention Act of 2016 (STOP Act of 
2016), which some of us are proposing, will help there. But, 
you are saying that you are apprehending less of it. And yet, 
we are seeing more of it in our communities.
    Ms. Provost. Well, that is just through the beginning of FY 
2017. So, the last 2 months, our numbers are down slightly, but 
they are trending very closely, across the board, to where they 
were last year.
    When we talk about how much we interdict, that is a 
difficult number to determine, because it is difficult to say 
what we do not know. That being said, we use all of the 
resources that we have, to the best of our ability, to try to 
interdict. It is a focus for us. It has been, over my entire 
career within the Border Patrol. We have many more tools now, 
than we did in the past, to assist us. We have grown in our 
capacity, with K9 officers and such--utilizing other sources to 
help us----
    Senator Portman. Deputy, let me just interrupt you, again, 
because my time is ending here. You say that you are using 
every resource that you have at your disposal. And yet, my 
understanding is, you have not asked for help from Operation 
Phalanx, for instance, which is a Department of Defense (DOD) 
operation, and which would help, in terms of monitoring, and 
would help also, in terms of just the transporting--because 
some of these drugs come in, as I understand it, illegally, by 
air, just across the border, on small strips. Why are you not 
accessing some of these DOD resources that are available to 
you?
    Mr. Morgan. Sir, we actually are in dialogue to continue 
that operation. I know there is----
    Senator Portman. So, you are changing your view on that? 
And, you are going to ask for their help?
    Mr. Morgan. From my perspective, as the Chief of the United 
States Border Patrol, I agree with you: We need the help.
    Senator Portman. Do you need additional resources, beyond 
Operation Phalanx, to be able to do your job?
    Mr. Morgan. Yes.
    Senator Portman. I think that is important for this 
Committee to hear, because, again, I do not know if it is 1.5 
percent or 2 percent that you are actually able to stop, but it 
is a very small number. I think you would agree with that. And, 
you indicated that you are using all of the resources that you 
have. You have new detection and monitoring capabilities, but, 
obviously, it is not working--to be able to stop this flow of 
the poisons. And, again, some of it is stopping it--some of it 
is increasing the cost. Ultimately, I think the cure is going 
to come from the demand side. But, we have to be able to do a 
better job at the border.
    Mr. Morgan. Yes, sir, I agree. And, it really goes to that 
threat-based, intelligence-driven, and operationally-focused 
approach as well. So, we need to increase our counter-network 
strategies. We need to work through initiatives, like Operation 
Stonegarden (OPSG), with our domestic partners. We need to work 
with--continue to work with our international partners--Canada 
and Mexico as well. We need to really take the fight to the 
enemy, and stop it, before it even touches the border. Those 
are all things we are doing, but we need to get better at----
    Senator Portman. I am going to ask you, if you would, to 
submit in writing, to the Committee, what you need from the 
U.S. Coast Guard (USCG), from our military--in terms of 
Operation Phalanx and other resources--from the Drug 
Enforcement Administration (DEA), and from other Federal 
Agencies--and how we can be helpful to you, in order to really 
begin to make progress on increasing these apprehensions and 
stopping the flow of some of these poisons.
    Thank you, Mr. Chairman.
    Senator McCain. Could I just mention, Mr. Chairman, in the 
National Defense Authorization Act (NDAA), there is a 
requirement to use drones. Right now, drones are flying out of 
Fort Huachuca, Arizona, and you are not coordinating with them, 
which is crazy. So, there is a requirement, in the NDAA, that 
you coordinate with the military to use the drones to surveil 
the border.
    And, finally, Mr. Chairman, things are not improving, as 
far as manufactured Mexican heroin is concerned. It is an 
epidemic. And, just because it is slightly better--that is 
totally unsatisfactory.
    Chairman Johnson. Senator Baldwin.

              OPENING STATEMENT OF SENATOR BALDWIN

    Senator Baldwin. Thank you, Mr. Chairman.
    Chief Morgan, I will narrow this, in a moment, to a 
question that I hope you will be able to answer. But, I just 
want to give voice to the fact that I have been hearing, as a 
Senator in the State of Wisconsin--and, certainly, from reading 
stories in the news--reports of a significant escalation of 
harassment, bullying, and incidents of hate directed toward 
immigrants, toward African Americans, toward Muslims, and 
toward other minorities in recent weeks. And, it has been very 
distressing to hear some of my constituents' accounts.
    Recently, the Southern Poverty Law Center (SPLC), which is 
tracking some of the hateful incidents in the weeks after our 
recent election, said that anti-immigrant incidents were the 
most common type of harassments that have been reported.
    In my home State, I have received communication from a wide 
number of individuals. I heard from a father in the community 
of Tomahawk, Wisconsin, who told me, ``While in school, my son, 
who is adopted from Guatemala, was approached by a classmate 
and was told to pack his bags for Mexico.''
    A few weeks ago, there was a documented report of a piece 
of anonymous hate mail that had been sent to a family in 
Fitchburg, Wisconsin. The letter to the family, which includes 
11 adopted children from the United States, from Ghana, and 
from China, read, in part, ``Trump won. Go home. Race wars are 
on.''
    It is not only happening in Wisconsin, as I mentioned. It 
is across the country--and it is deeply concerning to me--and 
goes against the values that we hold as Americans.
    I have also heard from constituents in the immigrant 
community about their very real fears concerning potential 
anti-immigrant policies, under the incoming Administration. For 
example, I have heard from legal green card holders that they 
are afraid to travel in the next few months, because they fear 
that they may be turned away or be subject to additional 
scrutiny when they seek to return to the United States.
    And so, I want to ask you, in connection with helping to 
reassure my constituents, and other legal immigrants, that 
nothing will change in the U.S. Border Patrol's process for 
determining immigration status--and if you might add--I would 
like to hear about the training that your officers receive on 
the treatment of individuals in the Border Patrol's custody, 
including harassment and discrimination against immigrants and 
other minorities.
    Mr. Morgan. Yes, ma'am. First of all, everything you just 
described goes against everything I personally believe as well, 
as an American. So, I agree with you 100 percent.
    As far as the United States Border Patrol, what we are 
doing and how we are doing it is not going to change. The 
current law and policy that we have been directed to operate 
under--that is what we will continue to operate. When that 
changes, then we will change. And, we will enforce the law and 
the policies that we are directed to. But, right now, we 
understand the law, and we understand the policies as they are 
written. The United States Border Patrol will comply with those 
policies going forward. There is not going to be a change. Once 
there is immigration reform--and if there are new policies--we 
will adjust accordingly.
    As far as the training at the academy, it is absolutely a 
significant topic, at the academy. I think we, actually, have 
one of our best leaders leading the United States Border Patrol 
Academy in Chief Patrol Agent Dan Harris. Personally, I have 
had numerous conversations with him. In my former life, I was 
Assistant Director of the FBI's Academy as well, where these 
things were talked about as well--implicit bias, etc. Those are 
critical things that we focus on and that we need to focus on--
and we continue to focus on them.
    Senator Baldwin. Can you provide any additional detail on 
the curriculum during the training, other than the broad 
comments you have just made?
    Mr. Morgan. No, ma'am. I cannot provide like specific topic 
areas, but I can follow up and provide that
    Senator Baldwin. OK.
    My understanding is that the U.S. Border Patrol is 
currently 50 percent overcapacity at its holding facilities. 
And, I understand that you are in the process of building 
additional temporary facilities, which will continue to provide 
medical attention, clothing, and other resources to women and 
children, in particular.
    In addition to service on this Committee, as you know, I 
serve on the Homeland Security Subcommittee of the Senate 
Appropriations Committee. And, with that in mind, can you speak 
to what resources are currently needed, with regard to dealing 
with overcapacity issues in your holding facilities?
    Mr. Morgan. Yes, ma'am. Actually, Tornillo was one that we 
set up. It has a 500-bed capacity right now. It comes at a high 
cost. We are, actually, positioned to open up more, in other 
areas, where we do have an overflow. In some areas along the 
Southwest border, we are, actually, at more than over 100 
percent capacity, in some of our areas. So, places--like in the 
temporary holding facilities, like Tornillo--it is necessary 
for us to deal with that overflow.
    It comes at a high cost, like you said. I mean, it is 
really from A to Z. And, it really is child-care professional 
stuff that we are doing--clothing them, feeding them, making 
sure that they get medical attention, making sure that they are 
able to sleep, making sure that they get appropriate meals 
during the day, making sure that they have snacks and that 
meals are warm, and all of that stuff that we should be 
providing a child and a mother or a father of that child. That 
is what we are doing. But, as the numbers continue and 
increase, our capacity becomes strained. And, we are having to 
go to extreme measures to make sure that we are doing the right 
thing.
    Senator Baldwin. Thank you.
    Chairman Johnson. Senator Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you, Chairman.
    I wanted to follow up on some of the questions that Senator 
Portman asked about the heroin and fentanyl interdiction at the 
Southern border. And, this is something that I have also 
focused on in the Senate Armed Services Committee (SASC), along 
with the Chairman of that Committee, Chairman McCain, in terms 
of working with our leaders in the U.S. Southern Command 
(SOUTHCOM) and the U.S. Northern Command (NORTHCOM), and 
enhancing their resources for interdiction there, because those 
networks, as I understand it, can be used to traffic anything. 
And so, it is a national security issue as well.
    So, can you tell me, what is it that would be the most 
helpful to you, in terms of really increasing our ability to 
interdict--especially as we think of the devastation that 
Senator Portman referenced, which we have seen in my State as 
well--when it comes to heroin and fentanyl?
    Mr. Morgan. I think it has already, in part, been described 
by everybody here. And, you know it. First of all, we have to 
strengthen those partnerships. We have to strengthen that 
intelligence mechanism that really, through the counter-network 
operations--both domestically and with international partners--
to really take the fight to them.
    Senator Ayotte. Right.
    Mr. Morgan. If they have made it to the border, we have 
kind of, in essence, already lost, right? So, we have really 
got to strengthen that intelligence apparatus.
    Senator Ayotte. And, as I understand it, on the Senate 
Armed Services Committee there also is a rule, I think, for 
some of the role of our military, on the other--obviously their 
role--thinking about their partnerships.
    Mr. Morgan. Yes, ma'am. And so, we also need to work with 
the intelligence community (IC) as well, and to make sure that 
the intelligence that we are gathering at the border, by the 
great men and women of the Border Patrol--the amount of 
information and intelligence they get at the border is 
overwhelming--in a good way. We need to make sure that the 
stuff that we know and the stuff that we get--that we are 
getting it to the right people, so that they can do what they 
need to do--that we are not able to do--in an overseas 
environment. It is absolutely right. We have to continue to 
strengthen that. We are doing it. We just need to get better at 
it.
    Senator Ayotte. I want to ask about the Northern border. 
Senator Heitkamp and I have a bill, the Northern Border 
Security Review Act, that actually did pass the House last 
night. And, Chairman Johnson and Senator Peters are also on 
that bill, and I am appreciative of that. As a Northern border 
State, this, to me, is very important as well. And, I wanted to 
know if you were familiar with the Northern Border Security 
Review Act and what your view is, as to the potential issues at 
our Northern border. And, I know that those issues are issues 
that can impact our national security, so what is your 
assessment of where we are on the Northern border and what is 
your view of the Northern Border Security Review Act--and 
whether you think it would be helpful?
    Mr. Morgan. So, first of all, I think the Act would be 
helpful. Anything that is going to have us further the dialogue 
and further focus on the Northern border is a good thing. I am 
trying to use the right adjective to talk about the Northern 
border--and we had the discussion yesterday. I think the right 
word I would use--I am ``concerned'' about the Northern border 
and the threats that are posed there. Obviously, we are not in 
a classified environment, so we have to be narrow in how we 
talk about that. But, again, I will go back to that threat-
based, intelligence-driven, and operationally-focused approach 
that we need to have. And, what we need to do is make sure that 
we are focused on threats--not just numbers. And, I will use an 
example really quickly.
    So, the interdiction effectiveness rate that we all know, I 
do not think that is a great measure. If we apprehended 100,000 
gang members or 100,000 6-year-olds, the output of that measure 
will be the same. But, we are really not talking about the ``so 
what'' behind it. So, what I want to make sure--we can focus on 
numbers, because we have to deal with the numbers, but I want 
to make sure that, in all that we do--our allocation of 
resources, our requests for requirements and resources, and our 
measures and metrics--that, first and foremost, it is focused 
on the ``so what'' and it is focused on the threat--and not 
just on the activity and the numbers going forward. I think we 
need to continue to strengthen that.
    Senator Ayotte. Thank you. Thank you both for what you do 
for the country. I appreciate it.
    Chairman Johnson. Senator Booker.

              OPENING STATEMENT OF SENATOR BOOKER

    Senator Booker. Thank you. First of all, I want to thank 
you both for your service to our country--the jobs you do. It 
is an awesome responsibility. I stand in humble gratitude to 
both of you for what you do on a daily basis.
    More than this, the job that you are doing is fundamental 
to the safety of my community and the State of New Jersey--as 
well as all of us. For some of the greatest threats we are 
facing as a Nation, you all are on the front lines protecting 
us. And, some of the most dogged issues that are undermining 
the safety and security of households, from drugs to terrorism, 
you all are the front lines. And, I am grateful for that.
    In addition to that, as a person who, under my leadership, 
when I was a mayor, I had over 1,000 sworn officers as well as 
other first responders--and many folks just do not know the 
kind of pressures and challenges front-line law enforcement 
face every single day--the incredible dangers and the 
unrelenting--sometimes--abuse that officers face.
    I want to just again echo the sentiments, I am sure, of all 
my colleagues, in just expressing the appreciation. When you 
talked about being the leading Agency with assaults to 
officers, that is very frustrating to me. And, I want to commit 
to you--and I am sure my colleagues agree--please reach out to 
me if there are things that we are not doing to support the 
mission that is central to your success of protecting the well-
being of your officers, and giving them the resources they need 
to make sure they are doing what they need to do.
    I have a concern--under my leadership officers--and I did 
everything I could to drive down those analytics, including 
attacks against officers, making sure they had tools that could 
protect their safety--technologies to protect them. One thing I 
did not build out early, in my time as mayor, which came back 
as a shocker to me, because it violated my values--as I know it 
would yours--was I did not build up a set of metrics to be able 
to measure how my officers were interacting with the public. 
And, the American Civil Liberties Union (ACLU), and others, 
were making allegations that I did not believe were true about 
racial profiling--disparate treatment. But, we were arguing 
over things that there was no transparent analytics to measure. 
So, you and I share the same values concerning the conduct of 
first responders.
    Now, the President's 21st Century Task Force on Policing 
urges Federal law enforcement Agencies to collect, maintain, 
and analyze demographic data on all detentions--and added that, 
to embrace a culture of transparency, law enforcement Agencies 
should regularly post, on the Departments' websites, 
information about stops, summonses, arrests, reported crime, 
and other law enforcement data aggregated by demographics.
    Once I saw my data and began to cooperate with the ACLU to 
make it public, I found that everything started getting better. 
The accountability started getting better and the like. You all 
do not collect data on stops. I was actually stunned to find 
that out, because I know that the integrity of your Agency--you 
would want to know, as a manager, who you are pulling over, 
racial demographics, and all of the things that the ACLU is 
compiling--also stunning data. The ACLU has uncovered over 
6,000 pages of complaints, alleging abuse by Border Patrol 
agents, including racial profiling. Yet only one case has 
resulted in disciplinary action.
    I was in a similar situation with all of the evidence--very 
little disciplinary actions from me--until we started shining a 
light, using objective data. And so, I would like to know, 
again, why you are not collecting this data--really analyzing 
it and crunching it--and doing it in a transparent way that, 
first, could deflect a lot of the criticism often officers 
face, because some things are not true. But, second, it could 
help you, as managers, to better manage your Agency to the 
integrity that I know you both hold as professionals.
    Mr. Morgan. Well, first of all, sir, thank you for your 
kind words about how tough it is to do this job. On behalf of 
the men 
and women of the United States Border Patrol, who are not in 
D.C.--so I am not in a dangerous position. They are on the 
front lines every day. So, on behalf of them, thank you, 
because I do think they have a dangerous job and they are on 
the front lines and they are protecting our families, so thank 
you very much.
    Second, to your statements, I agree with you--everything 
you just said. We should be doing that, for the exact reason 
that you said, I think also to shine a light very positively. I 
am going to turn it over to the Deputy Chief here, to talk 
about what we are collecting. I do know that we are--I actually 
think we are collecting most of that stuff. I think what we 
need to do is get better at analyzing that stuff and getting 
that stuff out to the public. I think that is what we need to 
do--get better at.
    With that, I am going to turn it over----
    Senator Booker. Because this is the last time I will speak, 
can I get something from you about--you say, ``I want to get 
better.'' Are there deadlines and timelines that you have set 
for yourself to get better? And, then, the other things I would 
like to see from the Deputy Chief in the 1 minute and 50 
seconds I have left--you are also, unfortunately, the lowest 
Federal Agency with law enforcement, in terms of representation 
of women. And, that is something that we found with other 
Federal Agencies is really important to address. And, 
obviously, we know what is happening in Arizona with the 
Federal ruling right now--another area of just figuring out 
analytics to measure the treatment of people once you have them 
detained. The conditions in that Federal case were stunning to 
me and I know do not reflect our common values and the ones I 
know you share. Thank you.
    Ms. Provost. If I may, just touching on the first point 
with the data collection, in my role in the Office of 
Professional Responsibility, following on the Chief's role over 
there, we have been working diligently--or they are working 
diligently with both the Border Patrol and the CBP Office of 
Field Operations (OFO) to improve our transparency across CBP. 
As you know, that was one of the Commissioner's priorities. He 
has said that numerous times.
    There is a lot of improvement on data collection. I will 
tell you we have further to go when it comes to that. The sheer 
size of our organization, with over 45,000 sworn officers--we 
are working on this together. It is something that we realize 
we need to continue to improve upon. We work closely with many 
nongovernmental organizations (NGOs), in relation to any of 
their complaints. The Office of Professional Responsibility is 
expanding as well, to assist when it comes to investigations of 
any allegations against our employees.
    The Chief mentioned how high assaults have been. I can also 
tell you one statistic, though, is that our uses of force have 
decreased regularly over the last couple of years. So, we are 
showing improvement there. We are focusing on our work with the 
public in general, and we realize that there is need for 
improvement there.
    Just quickly, to touch on the representation of women, the 
Border Patrol does have a lower number of women. It has been 
around 5 percent really for the 20 years that I have been in 
the Border Patrol. That being said, working with our Office of 
Human Resources Management, we are taking a lot of steps to try 
to improve and to seek out more women that are interested in 
this. I, myself, was a police officer before joining the Border 
Patrol. The Border Patrol is very different work from much 
other law enforcement work, and it has been an area that we 
have struggled to increase our number of women. But, we are 
working on that. I think we are making strides in that area, so 
that we have a more diverse workforce.
    Chairman Johnson. Senator Ernst.

               OPENING STATEMENT OF SENATOR ERNST

    Senator Ernst. Thank you, Mr. Chairman. And, thank you both 
for being here, today. We appreciate your service to our Nation 
very much.
    I am encouraged by CBP's engagement with DOD to increase 
efforts to facilitate and expedite the hiring of our veterans 
as they leave the service. And, while I certainly support your 
efforts, as a veteran with previous experience working at a job 
assistance center at Fort Benning in a Transition Assistance 
Program (TAP), I am very much aware of the numerous--there are 
more than I can count--and often overlapping Federal employment 
programs for veterans. They reside in so many different 
Departments across the Federal Government. And, I have worked, 
therefore, with my colleagues in the Senate, including Senator 
John McCain, who is the sponsor of the Border Jobs for Veterans 
Act of 2015, to ensure that any efforts on this front actually 
achieve the goal of recruiting outgoing servicemembers for 
positions like yours. And, we really believe that this will 
help solve the fragmentation--or overlap--that we see in a 
number of those programs.
    Can you please provide the Committee with more details 
about how CBP is currently engaging with our DOD to help these 
retiring or transitioning servicemembers?
    Mr. Morgan. Yes, ma'am. As a former--current--I guess I 
always consider myself a United States Marine.
    Senator Ernst. Thank you.
    Mr. Morgan. This is a great program. Our human resources, 
obviously, they would be able to give you more details, but I 
can tell you they actually won an award this year for their 
interaction with the military counterparts. And, we are seeing 
extreme positive benefits. They are increasing their 
recruitment events across the country at military 
installations--and abroad.
    A couple of other things they are looking at in detail--
which I think is the right thing--a couple avenues of 
reciprocity, right? Physical fitness. You have somebody from 
the military. Do we really need to have them go through that 
again when they are already physically fit and they have 
already taken a physical fitness test within a certain time 
period? We are looking at reciprocity for a polygraph. If they 
have recently passed a polygraph, do we need to put them 
through another one? So, there are a lot of initiatives that 
our human resource division is looking at to increase that.
    Senator McCain. Could I just make a point? Right now, it 
takes 18 months--right?--to receive the clearance, so that you 
can be employed by the Border Patrol. Right?
    Mr. Morgan. Sir, it has actually improved dramatically now. 
They have reduced----
    Senator McCain. Why is it that a veteran cannot immediately 
be hired if that veteran has already gone through all of the 
screening?
    Mr. Morgan. Yes, sir, that is exactly what they are looking 
at. They are trying to look at all of those avenues----
    Senator McCain. All right. Let us do more than look at it, 
OK? It is outrageous. OK? Let us do it.
    Senator Ernst. Yes, absolutely.
    Senator McCain. Sorry to interrupt my colleague.
    Senator Ernst. No, you are fine, Senator McCain. I think 
the point is very well taken that we have a huge number of 
qualified personnel that are leaving the service and they are 
well fit to go into Border Patrol. And, they are used to the 
extreme lifestyles that you engage in. So, it is a great fit--
and with women as well, we have a great number of phenomenal 
women veterans that are exiting our services, and this would be 
a great place for them to further their careers.
    Senator Carper. Would the Senator from Iowa yield for just 
one moment?
    Senator Ernst. Yes.
    Senator Carper. A point of clarification. Senator McCain is 
right, 18 months is outrageous. You indicated it has been 
improved dramatically. To what extent?
    Mr. Morgan. Yes, sir. I am not sure of exact numbers, but I 
know that they have reduced that in half. I think we are 
looking at under a year right now.
    Senator Carper. Come back to us in writing, if you would, 
please. Thank you.
    Mr. Morgan. It has been improved.
    Senator McCain. Could I just engage in a colloquy for a 
second? If you have a veteran, who is leaving the military and 
who has already had the clearances, why could you not hire that 
person immediately?
    Mr. Morgan. Yes, sir----
    Senator McCain. Why would it take a year?
    Mr. Morgan. Yes, sir. And so, I think my phrase ``looking 
at'' is probably not the right word. They are actively pursuing 
initiatives to make that happen. And, also, actually, the vast 
majority of folks that we are looking at do not necessarily 
have the clearances--and the backgrounds they went through are 
not quite as extensive as some of the backgrounds that we do. 
But, the point is taken. And, to say ``looking at'' is not the 
right way. They are actively pursuing every opportunity where 
they could expedite that and give that reciprocity--for every 
area that they can.
    Chairman Johnson. So, what you can take away from this 
hearing is, you will have support for those initiatives--and 
the sooner the better.
    Senator Carper. Bipartisan support.
    Senator Ernst. I appreciate----
    Chairman Johnson. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chairman. I appreciate the 
discussion, because you can see that this is a topic that we 
are all very passionate about. And, again, our servicemembers 
are a great fit for your organization. And so, we want to see 
active engagement. We want to see progress in this area. And, 
if there is a way that we can engage and do a better job at 
that, we need to. We need to. So, thank you. And, I would like 
to thank my Committee Members for engaging in that discussion 
as well.
    Chief Morgan, I would like to go back. You acknowledged, 
earlier in this hearing, that a number of the UACs are released 
into the interior of our country, which is concerning. I have 
grave concerns about how our government handles those UACs once 
they cross the border--and I will give you a very specific 
example. There was a UAC named Edwin Mejia who came across the 
border. He went on to kill a young woman, Sarah Root, who was 
from Iowa. And, we learned that the Department of Health and 
Human Services (HHS) had lost track of him once he had been 
released to his brother.
    Now, this gentleman has gone on to who knows where. We are 
uncertain where this person is. And, unfortunately, the family 
of Sarah Root has not been able to see justice. And, it is hard 
to say whether they will receive justice in their lifetimes. 
Sarah's was, unfortunately, cut very short.
    So, I understand the difficulty of the problem that we 
have, when it comes to ``pull factors,'' and I would like to 
make sure that we are addressing those ``pull factors'' that 
will pull others into our Nation. But, I also want to take a 
look at those ``push factors,'' too--and you have identified a 
number of reasons out there. Drug interdiction is one. We have 
people consuming drugs here in the country. They are getting 
drugs into our country. We do have many counter-drug training 
centers all across the United States. One is at Camp Dodge, 
Iowa, for the Midwest region. Can you speak a little bit to the 
involvement of our Iowa National Guard and National Guards all 
across the country--Air and Army--and their counter-drug 
programs? Is that beneficial to your organization?
    Mr. Morgan. It kind of goes back to the Operation Phalanx. 
I think that anytime that we can leverage our National Guard 
and our military assets, it is a good thing. And so, where we 
are able to do that, it has absolutely had a positive impact.
    Senator Ernst. Very good. And, that is something that you 
believe that we should continue to invest in?
    Mr. Morgan. Yes, ma'am. And, if you talk--I forget what 
sector I was in, and I was talking--actually, one of the CBP 
pilots was actually a National Guard pilot as well. And so, we 
had a really good dialogue. He actually let me fly the 
helicopter for a little bit. I am not sure I was supposed to 
say that. But, we had a really good dialogue. And, what we 
talked about was, he actually felt that National Guard 
members--he was not sure who got more out of it--the Border 
Patrol or actually the pilots who are participating in that, 
because that is about as realistic training-wise as you can get 
to support the Border Patrol operations. So, it truly is a win-
win.
    Senator Ernst. Very good. Well, I appreciate it. Thank you 
very much for your time here. We had a very lively discussion. 
But, certainly there are things that we need to do better as 
Congress. We need to know what those things are and how we can 
enable you. So, thank you very much for your time and attention 
this morning.
    Thank you.
    Chairman Johnson. Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman. And, thank you to 
both of our witnesses for your service to our country and your 
work. It is a difficult job that you have, and I know both of 
you are fairly new to your positions, but you are both also 
very seasoned, so you have hit the ground running. And, I thank 
you for that, Chief Morgan, and Deputy Chief Provost as well. 
We spoke a little before the hearing, and I am particularly 
impressed, Deputy Chief Provost, by the fact that you have 
spent so much time in the field. I am sure that the perspective 
you bring from the field will be very much appreciated at 
headquarters, as well as appreciated by the men and women who 
are in the field each and every day. So, thank you both for 
what you do.
    Chief Morgan, I know that, as you have been diving into 
this job, you have been focused on making it a priority to 
visit patrol offices all across the country. As the Senator 
from Michigan, I hope that it is going to be a priority for you 
to get to Michigan soon as well, on the Northern border, which 
represents a number of unique challenges. And, certainly, in 
every region of the country, we can all talk about our unique 
challenges, but one in particular for us is the Great Lakes 
environment in Michigan and the fact that we have seasons--and 
winter--and, in fact, as we know from previous hearings, 
talking about protecting the maritime environment--and we have 
heard from CBP as well as the U.S. Coast Guard--when you have a 
thick ice cover, you can then walk across large parts of that 
border. The Coast Guard ships--even if they have ice breakers--
are not going to be able to have that kind of monitoring 
system, so there are some unique challenges for you. And, you 
will learn--I am sure you are aware of it already, but you will 
learn more about that when you go to Michigan.
    I am going to ask you a direct question. Are you planning 
on doing that soon?
    Mr. Morgan. Yes, sir.
    Senator Peters. Well, good. Good. It would be good to go in 
the winter when you see the ice, itself, to get a sense of some 
of those challenges.
    The other thing that I wanted to pick up on, too, just 
briefly--and to pick up on both Senator Baldwin and Senator 
Booker's concerns--because, certainly, I hear those concerns in 
my community as well. As you know, Michigan is a very diverse 
State. We have a larger Latino population, but, particularly, a 
large Arab-American, Muslin-American community. There are some 
real concerns that I have heard as well from folks who are 
fearful about what the future may hold for them. It is a real 
concern that we need to deal with.
    But, I have also heard from my stakeholders in this debate, 
from Southeast Michigan, around Detroit, where we have very 
large concentrations of folks from all over the world. And, 
they have also been very appreciative, though, of the Border 
Patrol and the close communication that they have with the 
local sector chief there. These meetings, I understand, have 
gone a long way in building trust. There have been some very 
positive things that have come out of that. And so, they asked 
me to encourage you to continue that kind of open dialogue and 
perhaps to get some feedback as you are starting in this 
position. How do you think that kind of communication is 
continuing with sector chiefs--and are there other things that 
you would like to see that we can go further in?
    Mr. Morgan. Yes, sir, absolutely. In fact, back at 
headquarters, we are actually starting a new unit, Strategic 
Communications. It is really all things communications, both 
internal and external. There is a great phrase, right? ``It is 
harder to hate up close.'' We have to get out there. Our 
leadership has to get out there. I have gone around, again, to 
11 sectors and many stations. And, the PACs that I have talked 
to that are out there and that are leading the way--the agents 
that are out there. It is not just the leadership. You go 
there, and it is the individual relationships that the agents 
have with the ranchers and with the community. They go so far 
in helping that perspective and really bringing everybody 
together.
    So, the more we talk, the more that we can be involved. It 
is a positive thing, and I have encouraged that from day one--
and will continue to encourage that.
    Senator Peters. Well, that is wonderful to hear. And, if I 
may, we could be involved when you come to Michigan. Let us 
know when you are there. Perhaps, we could assist in connecting 
you with some groups of individuals who have concerns and would 
love to have the opportunity to meet you personally and to have 
a discussion about some of their experiences. If we could 
facilitate that, we certainly would appreciate that.
    Mr. Morgan. Yes, sir. And, I think those have been some of 
the most informed discussions I have had--sitting down and 
breaking bread with the ranchers and talking to the community, 
absolutely. So, we will absolutely do that.
    Senator Peters. Great. Well, I appreciate that.
    I also want to pick up on--Senator Ayotte talked about the 
Northern Border Security Review Act, which I worked on with 
her, Senator Heitkamp, and Chairman Johnson to pass. It is now 
through both the House and the Senate. And, Chief Morgan, you 
mentioned some aspects of what we are concerned about in making 
sure the resources are being appropriately allocated, both to 
the Southern border and to the Northern border. You talked 
about the Northern border strategy and how we have to have a 
threat-based approach and look at that and not just the 
numbers. And so, I would like you to just speak to that a 
little bit more--dive in a little bit deeper. And, the fact 
that I know you have resource constraints--you have to be in 
both places. You have long borders. The Northern border is 
considerably longer than the border we have in the South. How 
is that being done now--and your idea that we need to be more 
focused on threat-based issues? How do you see that changing? 
And, is there anything we need to do here, at the Congressional 
level, to help you make those kinds of informed decisions that 
are going to ensure we have proper resources, both in the South 
and in the North?
    Mr. Morgan. Yes, sir. So, there are a couple of things 
going on right now. So, there is one initiative we have, called 
the Capability Gap Analysis Process (CGAP). Basically, what 
that is--it is a pretty decent process that we are going 
through that should tell us where our resources are needed--
regardless of only numbers. We are really, again, looking at it 
in a holistic way.
    We also are doing the same with personnel and Personal 
Radiation Detectors (PRDs). It is, again, a system to look at 
personnel needs on a series of factors.
    As I am reviewing that, though, the challenges that I have 
with that are it is really--I find those systems to be a little 
bit too focused on the activity base--meaning numbers. And so, 
I am asking questions about those to make sure that we are 
pushing the threat in there, because somehow--again, I use the 
analogy of the 100,000 6-year-olds and 100,000 drug dealers 
that we get. The way we measure that right now, the output is 
the same. We really need to adjust that. And, we really need to 
look at the ``so what'' factor of those numbers. And, part of 
that is the Northern border. So, if you look at that, the 
numbers are relatively low for apprehensions. We need to make 
sure that we are looking at it in a different way--we are 
reframing that. It is not just about numbers.
    That is going to be a cultural shift for the organization, 
but we need to make sure that we are doing that going forward. 
And, I think one thing that can help here is, when we start 
talking about personnel, I think what we did in the past a 
little bit--and what I am concerned that we should not do at 
the same--we talk about personnel. We are only thinking about 
badge toters. When we start taking a look and having a 
discussion about the personnel, we also need to--and I had that 
in my opening comments--is the kind of personnel. So, I think 
we need some more intelligence analysts as well to help us 
frame out that threat-based and intelligence-driven approach as 
well--so our needs are not always just Border Patrol agents. I 
am not saying we do not need more Border Patrol agents, but we 
definitely need other demographics as well.
    Senator Peters. Thank you. My time has expired. Thank you.
    Chairman Johnson. Senator Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Mr. Chairman and Mr. Ranking 
Member for having this hearing. Thank you both for your 
service. I appreciate you being here, today.
    One of the problems that Customs and Border Protection has 
is that it was toward the bottom of the list for best places to 
work. You have been in 6 months as Chief. Have you initiated 
any kind of programs to help bring that up?
    Mr. Morgan. Yes, sir. So, the Federal Employee Viewpoint 
Survey (FEVS), which I think everybody is familiar with----
    Senator Tester. Right.
    Mr. Morgan. It goes out there. So, what we did was, we took 
that--I think that just scratches the surface. That is a 
single, narrow data point that we can utilize. So, what we did 
was we came up with this human capital survey team. We actually 
brought Dulutha, a company from outside, in, went out to 13 
sectors, talked to 900 people from mechanics to sector chiefs, 
and really did a deep dive. Then we brought back leaders and 
even did a deeper dive to really hear what the agents are 
saying and what their concerns are. And so, from that, we have 
developed several recommendations. And, actually, I think the 
email is on my desk, waiting for that email to go out to the 
workforce to really enumerate what those recommendations are, 
and then how we are going to put kind of action teams together 
to action that.
    We are also taking a look at--and part of that--I will give 
you an example. So, the Border Patrol Agent Pay Reform Act of 
2014 (BPAPRA)--the pay, right? That is hard. The more I learn 
about that, the more I just shake my head. And so, what we are 
trying to do is influence change where we can.
    I will give you one example. So, the K9--so I get in 
there--and the K9--I think the Border Patrol does it right. 
They take their dogs home. Right? They become bonded. They are 
together. The dog is better and the handler is better. We say, 
``Yes, take them home. That is a good thing.'' And then, we do 
not pay them for the time that they spend taking care of their 
dogs at home. I do not think that is right. Right now, it 
actually takes a legislative change to get that. So, that is 
something we could need your help on to get changed. But, that 
is just one example of something within BPAPRA that we are 
taking a look at.
    Senator Tester. OK. Well, we have worked on the pay issue 
before. We can work on it again, so it is not a problem.
    As you look at the overall structure, do you believe that 
the top management compared to the folks on the ground--that 
you have the right ratios?
    Mr. Morgan. I am hesitant to use the word ``taking a look 
at,'' but, again--4 months--I am taking a look at that. I have 
talked to the union about that as well. They have echoed their 
concerns about that ratio. So, I am collecting data on that.
    Senator Tester. OK. And so, we talked a little bit about 
staffing on the Northern border. And, I think the process that 
you go through to hire folks can be pretty long and pretty 
cumbersome. Do you have any recommendations to expedite that 
process?
    Mr. Morgan. I think that really probably is something that 
we really need to bring back to our human resource people to 
give you the details. I can tell you they have done an 
incredible job. They have cut that in half. They have 
developed----
    Senator Tester. They have cut the time in half already?
    Mr. Morgan. Yes, sir. One example is, they developed these 
hiring hubs, so instead of going to five different locations to 
do all of these, you go to one spot and you knock out like six 
steps in the process. So, my suggestion is, we need to do more 
of that--and continue that.
    Senator Tester. OK.
    Mr. Morgan. We need to look at stuff, like the military, 
and look at where we can have reciprocity for polygraphs, 
physicals, and stuff like that.
    Senator Tester. Perfect.
    Mr. Morgan. And, another thing that I would say is, I think 
the best recruiter for a United States Border Patrol Agent is a 
United States Border Patrol Agent.
    Senator Tester. I agree with that.
    Mr. Morgan. So, I am dedicated to making sure--if you look 
in the past, the Border Patrol did that, and they did a darn 
good job of that.
    Senator Tester. Yes.
    Mr. Morgan. So, I am dedicated to making sure that we are 
allocating more resources--Border Patrol agents--to hire Border 
Patrol agents.
    Senator Tester. All right. So, you have Senator Heitkamp, 
myself, and a number of people on the Northern border here. In 
North Dakota and Montana--I do not know if it is true in other 
places--we have a hard time keeping folks. It is the best place 
in the world to live. It is just that people do not know that. 
And so, the question is: When you come to recruit, do you have 
a plan to recruit in some of those more frontier areas where 
you are not going to be able to go to the opera or see a 
professional football game in that region but, by God, you are 
going to be able to go shoot a pretty good size antelope and go 
fishing on some pretty good streams? Do you have a recruitment 
plan for those areas?
    Mr. Morgan. One will be, whenever this job ends, I think I 
may move up there after my tour.
    Senator Tester. We will put you to work if you do.
    Mr. Morgan. I agree with everything you said, sir. Yes, so 
we are working with the Office of Human Resources Management on 
where we can get better focused recruitment events and where we 
should be going.
    Senator Tester. Can I make a suggestion? You have a ton of 
small schools--and big schools by Montana and North Dakota 
standards--on that Northern border. A lot of people do not know 
about the career opportunities you have in Customs and Border 
Protection. And, quite frankly, if you were able to send and 
get a hold of those counselors and even make appearances, you 
are going to get people that not only live there, but want to 
live there, to do the job that you do. And, like you said, if 
you can have other people that wear the uniform go up and talk 
to these kids about the opportunities, I think you would be 
quite successful. In States like Montana, we serve in the 
military at a higher rate than just about any other State, in 
terms of percentage per capita. North Dakota is probably ahead 
of us. So, at any rate, it solves that problem. So, that is 
just a suggestion.
    Operation Stonegarden grants--we talked a little bit about 
this yesterday. You talked about how important they are. How 
deficient is the Operation Stonegarden grant budget right now, 
in your opinion? Is it 25 percent less than it should be? Is it 
about where it needs to be? Is it too high?
    Mr. Morgan. I do not know. I have not done a deep enough 
dive. I can say, though, when I have gone out to every single 
sector, on the Southern and Northern borders, it is just 
resounding, what I hear from the chiefs and the sheriffs that 
are participating in that program. They are like, ``More.'' So, 
I need to do a deeper dive for me to be able to personally tell 
you that. But, what I am hearing from the sector chiefs and 
what I am hearing from the law enforcement chiefs and sheriffs 
that are involved in the program, it is a great program and 
they want more.
    Senator Tester. OK. Another question along those same 
lines, because you have farmers and ranchers that live on that 
Northern border that know that property like the back--and, in 
fact, they do know it as good as the back of their hand. Do you 
have--does your agency have an outreach program to them, to 
make sure that they are on board? And, I can give you an 
example. Ten years ago, when I got this job, we went up to the 
Northern border, and there was not a very good relationship. 
That has changed over the last 10 years. Is there outreach 
being done to those farmers and ranchers, to let them know 
that, first they are appreciated, and, second, they can be the 
eyes and ears to help you out?
    Mr. Morgan. From my perspective, from what I have seen, I 
can absolutely say yes. I have gone in there, and I have seen 
the agents that are on the line and the relationships they have 
with those folks--with those landowners and ranchers.
    Senator Tester. OK. Good.
    Mr. Morgan. I mean, I have seen it, firsthand. Is there 
always room for improvement? Sure, absolutely. And, we are also 
doing citizens' academy type of things as well. We are bringing 
people in. But, yes, sir, I think that is happening.
    Senator Tester. Super. Well, just in closing, I would just 
say this: I think this Committee and the Senate Appropriations 
Committee are very open to making sure you have the resources 
you need to keep this country safe along the Northern as well 
as the Southern border. We just need to have the information. 
And, when it comes to recruitment and when it comes to whether 
we have the technological manpower resources, we have to have 
that information. And, it has to be good information. 
Otherwise, we will make bad decisions. So, I do not know what 
you are allowed to do, but do what you can do, so people know 
what the challenges are on both borders.
    Thank you.
    Chairman Johnson. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Thank you both, again, for all of the 
ongoing service that you have had for a very long time and for 
what you are continuing to do. I have a whole series of 
questions on a multitude of different issues, and I will just 
try to get through as many as I can.
    Chief, you have been there a whopping 6 months now, and you 
have obviously made a lot of progress and dug in a lot. And, 
you are looking at a lot of things at this point, and we 
appreciate that very much.
    Before you came in--about 5 months before--in January of 
this year, the Inspector General (IG) put out a report on the 
Special Operations Group program. It is a program that was 
budgeted $8 million. It actually came in at $33 million. And, 
the Inspector General came back and said that there are no 
metrics that are attached to it--or oversight measures--for the 
Special Operations Group. Are you familiar with that report? 
Again, it predated your leadership there. Are you familiar with 
that report? If you are, can you comment on it? And, if you are 
not, can you follow up on it and what progress is being made 
there?
    Mr. Morgan. I am not. And, I will follow up.
    Senator Lankford. OK. Fair enough on that.
    In your statement that you put in, you made a comment--it 
was kind of an offhand comment, quite frankly, but it was 
interesting. You mentioned voluntary return (VR), and then you 
put a comma, ``the least effective and efficient consequence.'' 
It is just kind of an offhand comment about voluntary return. 
Can you give me additional detail about that?
    Mr. Morgan. So, voluntary return--if you look back in time, 
I mean, basically, it was just that. We would apprehend 
somebody at the border, and we would just say, ``OK, go back.'' 
And, what that caused--we were agents back in the day.
    Ms. Provost. Yes.
    Mr. Morgan. You can talk to it better than I can. Back in 
the day, what that meant was, an agent could actually end up 
apprehending the same person three or four times in the same 
shift, because there were no consequences.
    Senator Lankford. Right.
    Mr. Morgan. There was no deterrence. So, to do a VR today 
just does not make sense.
    Senator Lankford. So, what is the alternative there? And, 
is that something we need to fix in statute?
    Mr. Morgan. So, I think, statutorily, I guess we could have 
a dialogue to just remove that as an option in its entirety.
    Senator Lankford. It has been a concern, and there has been 
a lot of dialogue about just what you just said. If you say 
voluntary return, someone is picked up at the border, and they 
say voluntary return--they know the term. As you mentioned 
before, they are coached on what terms to use--whether that be 
fear or asylum--all of the different statements--or voluntary 
return. They are able to cross right back over the border 
again, come back, move a mile down the road, come back again, 
and get picked up again. How many times do you think that 
should be allowed? Because, you know you are dealing with a 
person that is aware there is a border there. They are aware 
that they have crossed the border illegally. And, should they 
be able to do that 20 times? Five times? Three times?
    Mr. Morgan. So, from the United States Border Patrol 
perspective, not ever. Right? The first time you cross, there 
should be some type of consequence that leads to a deterrence.
    Senator Lankford. OK. Thank you.
    Do you have any other comment about that, Ms. Provost?
    Ms. Provost. No. I would just echo really what the Chief 
was saying in relation to that. And, we do now utilize much 
more expedited removal, which has been a huge benefit for us--
having that ability, over the last decade.
    Senator Lankford. Terrific. You both mentioned at the 
beginning of this, in the opening testimonies, your concern 
about terrorism and terrorist activities or materials moving 
across the border--as well as drugs. We have talked quite a bit 
about the movement of drug smuggling as well as human 
smuggling. You mentioned some of the things about terrorism in 
your opening statements. Can you give us any additional detail 
about that?
    Mr. Morgan. It is challenging in an unclassified setting, 
but I think, again, I will go back to that approach and why it 
is so important to take that threat-based, intelligence-driven 
approach. Again, we spend a lot of time talking about UACs and 
family units. Again, I will go back. I do not see that 6-year-
old on the road at midnight as a national security threat. But, 
I will go to the Northern border, for example. It is open 
source intelligence. We know that there are individuals in 
Canada that are self-radicalized. Right? We know that. We know 
that there are connections to international terrorist 
organizations. That is open source intelligence. So, it is that 
type of threat that concerns me.
    And so, when we are dealing with our metrics and when we 
are dealing with our strategies--again, not only do we have to 
talk about the numbers--that is always going to be a 
component--but, again, we need to focus on that threat. And, 
what I can say is, there are threats out there that concern me.
    Senator Lankford. OK. So, let me dig a little bit deeper. 
You have been asked a couple of times about what you need. And, 
you have mentioned partnerships and cooperation. Can I take 
that down to the next level? What does partnership mean for 
you? Is that additional personnel to be able to form that 
partnership and relationship? Is that collocating in 
situations? Is that materials? What is needed when you talk 
about additional partnerships and cooperation?
    Mr. Morgan. All of that.
    Senator Lankford. OK. I know Senator Portman had mentioned 
to you just his request. Let me add to it as well. Can you 
submit back to us in writing, ``For us to be able to do our job 
effectively, we think we need this? '' That gives us greater 
clarity. Because, even when we talk about technology needs, 
there has been a tremendous amount of experimentation with 
technology. There has been a lot of variety, for instance, in 
aviation--whether that has been unmanned or whether it is the 
multiple platforms for helicopter, aircraft, and fixed-wing, 
trying to figure out which one is the most effective. Do we 
need to maintain all of these? Is a certain one more effective 
than another one? All of those things come into it as we try to 
make decisions on this Committee about--not just that we need 
to help you with partnerships, but the mechanics of what that 
means. So, the more detail we can get, the better.
    And, let me just back up to technology and aircraft, 
because there has been a lot of debate--whether it is fixed-
wing, whether it is rotor, or whether it is unmanned. What is 
the most effective, most efficient, and least costly to get the 
best bang for the buck--and then other technology pieces that 
are actually getting you a good return now? Because, if we go 
back 4 years ago, we were spending $1 billion on a program that 
did not work. What technology is working?
    Mr. Morgan. Yes, sir. I agree with everything you just 
said, and, I think--I do not need to say it--that it is so 
unique from sector to sector, so one size does not fit all.
    Senator Lankford. Right.
    Mr. Morgan. So, like you just talked about, I mean, there 
could be areas where rotor-wing aircraft is not effective--
manned, but yet a small unmanned platform would be more 
effective in an area. So, it is a complicated process to 
determine. To be smart about it, to use the money wisely, and 
to figure out what assets we need where, that is part of that 
CGAP process that I was talking about--the capabilities 
initiative that we are doing. And, we are well under way with 
that, and I think it is going to be able to provide this 
Committee with exactly that information.
    But, I can tell you, we do need additional stuff. We need 
additional assets, the operational assets--the horses, the K9s, 
etc.--more technology, yes, and infrastructure, yes. On the 
bodies, it is a little tougher to say, right now, exactly what 
we need as well as how much and where--and we are working 
through that.
    Senator Lankford. OK, terrific. That report will be 
finalized when?
    Mr. Morgan. I am not sure.
    Senator Lankford. OK. Give me a guess. A year? 10 years?
    Mr. Morgan. FY 2017.
    Senator Lankford. OK. That helps. Can I also ask you to 
take sustainment into consideration when you do that as well? 
Because, there is a lot of conversation about how this is what 
we need. The next question is: How many people does it take to 
maintain that? What is the long-term sustainment of that and to 
be able to keep that a part of the ongoing conversation?
    Again, I appreciate what you are doing. And, thank you for 
the extra 20 seconds, Mr. Chairman.
    Chairman Johnson. Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman. And, thank you 
to both of you. Earlier this month, I visited the Portal POE. I 
have talked about Portal a lot in this Committee, because we 
are particularly challenged in those areas--whether it is the 
Grand Forks Sector or the Havre Sector--in terms of personnel. 
And, it is absolutely critical that we have an employment plan. 
And, I want to reiterate what Senator Tester already said. I 
think we can find some good folks right there.
    Senator Lankford and I held a hearing where we talked about 
employment regarding the recruitment of millennials. And, your 
personnel officer from DHS came with a new burst of energy. And 
so, we are looking forward to seeing her report and what she is 
doing--some really creative ideas.
    But, I do want to point out, again, concerns about the 
Northern border. The bill that will inevitably get signed into 
law by the President--hopefully, in the next couple of weeks--
will put demands on you to inform the public as well as inform 
this Committee and Congress about what those threats are and 
what it takes, in terms of personnel, equipment, and 
technology, to basically meet those threats. And so, I just 
want to, once again, encourage you to not only meet the 
deadline in the bill, but, maybe, bring it in a little early, 
because, as you can see, there is a great deal of concern and a 
great deal of publicity now about what is happening on the 
Northern border.
    So, with that said, I want to talk about Canada. We had a 
great conversation, I think, yesterday, but, I think, for the 
record here, if you would reiterate the kinds of things that 
you are doing with your counterparts in Canada that can, in 
fact, expand personnel and provide more situational awareness. 
We have a huge advantage on the Northern border that we do not 
have on the Southern border, which is a trusted and long-term 
partner, in terms of keeping the border secure. So, if you 
could just give us a rundown on your work with the Canadian 
officials, that would be great.
    Mr. Morgan. Yes, ma'am. So, there are a couple of different 
issues out there. The International Border Enforcement Team 
(IBET) that is there. It is a mix of Canadian law enforcement 
and U.S. forces, mainly Border Patrol. There are a few other 
entities that are in there. It is a great initiative. It is 
part of the quintessential task force environment--and you are 
right, they are trusted allies and it has served to be 
effective. We need to continue to expand on that.
    When it comes to national security intelligence 
information, that is probably an area that we need to continue 
to expand on. The communication flow can be a little bit 
cumbersome at times, in that it has to go up to more of a 
national level, and it does not always get down to the folks on 
the line as expeditiously as it should. But, we recognize 
that--both sides recognize that--and we are working towards 
that.
    We are looking for more opportunities where we can actually 
do integrated operations, right? More of that. It is not just 
about sharing information and intelligence. It is actually 
taking that, analyzing that, and then actioning that into 
really true counter-network operations--right?--across the 
border--and being able to do more of that. We are doing some of 
that. I think we should and can do more of that going forward. 
Those are just a couple of the efforts we are doing.
    Senator Heitkamp. I want to reiterate what you were talking 
about earlier, which is that there are tasks that are being 
performed by guys and gals wearing badges that really could be 
done by other professionals--especially as it relates to the 
UACs issue. And so, I just really encourage you, when you are 
looking at this report, to look very closely at those tasks 
that the guys in green should be performing and where we can 
transfer out.
    Now, I am going to be really specific on this, but it does 
concern me. One of the biggest concerns from the Border Patrol 
agents I talked to when I was at Portal is communications. Many 
times on the border, you will get bounced off of a Canadian 
tower, you will get bounced off of a radio tower in North 
Dakota, and they are out there with no cell coverage and no 
radio coverage. That is not a formula for success--especially 
when they are going to have to rely on the sheriff to give them 
backup if they encounter an event.
    And so, can you please look into communications on the 
Northern border, especially in remote locations? I think we owe 
it to those people, who put on a badge and walk out the door 
every day--their family not knowing whether they are going to 
come back. We owe it to them to give them the best equipment.
    I want to just turn a little bit to the Southern border, 
because I have spent a fair amount of time down there. And, 
Chief, you will probably laugh at this, but can you paint your 
cars a different color than white? You did? But, I am serious 
about this, because I think that, obviously--not that you 
should be clandestine, but, if you are a spotter on a hill in 
Mexico, and you are walking some drugs across the border, and 
you see a white truck coming on the border, it is pretty easy 
to radio down to the guys who are carrying the contraband and 
tell them to avoid this or avoid that. I mean, I do think there 
is some advantage to having a vehicle that is less likely to be 
spotted. And, we know this happens. They are up on the hill. 
Right? They are watching you every minute, especially if they 
are moving product of any kind of value.
    And so, your ability to move in a way and respond to it in 
a way, without early detection, can be enormously valuable. And 
so, it is just a thought. And, I am passing it on from the 
folks on the Southern border who look at this and say that this 
is a problem.
    And, I want to encourage you to continue--and I know you 
have, and I am grateful for that--your ongoing outreach to the 
ranchers, both on the Southern border and on the Northern 
border. ``See something, say something.'' We have to create 
relationships where people are all in this together. And, I 
think you were down--you visited with the ranchers on the 
Southern border. There are good reports coming back from that, 
Chief, so thank you. Keep up the dialogue and keep up the open 
communication. Those guys know a lot. They have been on that 
land. As Tester said, they know their land like the back of 
their hand. And so, thank you--both of you--for putting on that 
uniform every day, representing all of us and doing some of the 
toughest work that is done in America. I really appreciate it.
    Ms. Provost. Thank you.
    Chairman Johnson. Thank you, Senator Heitkamp.
    I really just have two further lines of questioning. One 
has to do with the incentives. We talked earlier about the fact 
that we have no expedited removal for kids and family units 
from Central America. An NTA, just creates that incentive. If 
you get in the country, you stay. But, I want to talk about 
other incentives as well.
    What about sanctuary cities? To what extent does that, 
again, incentivize people to come here? Because, they know 
that, once they are holing up there, they are not going to be 
deported. Do either of you want to speak to that?
    Mr. Morgan. Sure. I think, probably, from the perspective 
of the United States Border Patrol, when we look at those 
factors, I probably do not really look beyond the fact of an 
NTA.
    Chairman Johnson. OK. More of a question for the U.S. 
Immigration and Customs Enforcement (ICE), OK.
    Mr. Morgan. Yes, sir.
    Chairman Johnson. Let me talk about the ways that the 
smugglers--the human traffickers, really--defeat Border 
Patrol--for example, using minors and overloading the system. 
When we were down traveling with one of the sheriffs, the claim 
was that we do not prosecute unless it is at least 500 pounds 
of marijuana. Talk a little bit about some of those--what end 
up being incentives--or just impediments to, actually, 
enforcement.
    Mr. Morgan. Yes, sir. Thresholds are always an issue. Each 
jurisdiction sets their own threshold for a variety of 
reasons--that they have limitations--personnel and funding as 
well. You can see, from one jurisdiction to another, different 
thresholds for, basically, the same activity--the same amount. 
It can get frustrating. I think that can actually serve as a 
morale challenge for the rank-and-file that are out there 
risking their lives every single day--and then, something not 
prosecuted--what can appear to be an arbitrary threshold. That 
is a challenge.
    Chairman Johnson. What about the use of minors? What can 
possibly be done about that? Or, what do we try and do about 
it?
    Ms. Provost. Well, is that in relation to the amount of 
UACs you are talking about, sir, that are coming in?
    Chairman Johnson. No, I am actually talking about----
    Ms. Provost. Or, are you talking about----
    Chairman Johnson [continuing]. Minors used as drug runners.
    Ms. Provost [continuing]. Using them to smuggle? Yes, and 
that has been a tactic that they have used for as long as I 
have been in the Border Patrol, because they do know that, at 
least criminally, they are not going to receive a prosecution 
because they are minors. So, that is a tactic that the drug-
trafficking organizations (DTOs) and alien-smuggling 
organizations (ASOs), have used for as long as I can remember--
specifically, for that reason--because, if they are a minor, 
they are not going to receive a prosecution. That is a 
difficult one for us. It is a tactic that we pay attention to. 
I would not say that it has increased. It is a common practice 
across the board, when it comes to bringing groups in--local 
guides, as we call them.
    Chairman Johnson. It works, unfortunately.
    Chief, you talked about morale. Let us talk a little about 
some, of the morale issues I hear about--the policy, in terms 
of ``got-aways,'' where agents on the ground level--they have 
to call in a supervisor if they see more than 20 ``got-aways,'' 
and then they are pulled off of the line. I do not know all of 
the ramifications, but it sounds like it creates a huge 
incentive not to report ``got-aways'' of more than 20 people. 
Can you speak to that?
    Mr. Morgan. Yes, sir. At this point, I have a challenge 
really with several of the measures and metrics we are using--
not just the impact it has on the agents--the perception and 
even reality on that, but is it really capturing what it should 
be capturing? And so, we are--unfortunately, I am going to use 
the phrase again. I am taking a look at that from a holistic 
approach. But, yes, I have heard some of those same concerns.
    Chairman Johnson. Deputy Chief Provost, when I had the 
Chief in my office, we talked--as I have talked to the United 
States Secret Service (USSS), anybody--about working on a 
continuous shift basis--I come from the plastics industry. When 
you have a continuous shift--my way of thinking--you need four 
shifts. And, we do not have that in CBP. What is your basic 
viewpoint of how we staff in the areas of Border Patrol that 
are on a continuous shift basis? Because, right now, you use 
three. You use overtime. It is just not as effective. In the 
private sector, you do not do that. Why do we do that in 
government?
    Ms. Provost. So, for the most part, we use three shifts. 
There are, however, areas where we do have four shifts, 
depending upon the location and what works best. The individual 
sector and the chief takes into consideration how operations 
work best and the resourcing that they have. As we know, our 
men and women are also a resource that we utilize. The fact 
that we have really established that Border Patrol agents 
working a 10-hour day helps with the coverage for the shift 
changes--but there are areas where the remoteness of the border 
has an impact, and we run four shifts in some of those 
locations, so that our agents have----
    Chairman Johnson. Do you see a difference in morale where 
you actually operate the four shifts? Do you find that that 
works better for you?
    Ms. Provost. In my conversations with agents, I have seen 
both sides of the fence, I guess, on that. Some agents would 
prefer four shifts and some agents would prefer three. So, we 
try to look at it as an aspect of what makes sense for that 
specific area of operations.
    Chairman Johnson. OK. I will ask that you work with me on 
that--take a look at it. I think it is something that is well 
worth looking into.
    In your joint testimony, I am concerned about this: Your 
losses are currently outpacing gains, creating a downward 
staffing trend. And, we talked about a number of reasons for 
that--something we really want to work with you on. In my final 
minute here, I just want to address fencing, because, again, 
fencing works. A better wall works. And, it also will help 
relieve the personnel issues, too.
    We did pass the Secure Fence Act of 2006. I do not think we 
have built the type of fencing that is actually working. I am 
not suggesting 1,700 miles, but I think we need better fencing 
in more areas. And, I just kind of want a quick comment on 
that.
    Mr. Morgan. Yes, sir, I agree. I can give you a quick 
example off of the top of my head. When I went and visited the 
San Diego Sector--that is an area along the stretch where, for 
a few miles, we actually have a primary fence and a secondary 
pedestrian fence. Not only did that work to stem the flow 
elsewhere, but, by doing so, the chief told me, at that point, 
he was actually able to take 100 agents and put them elsewhere, 
because it did not require that level of deployment there.
    I went to another sector, where they actually told me that, 
at one point, the free market across on the United States side 
had all but dried up--an area where they put fencing up and the 
flow had all but stopped. Now, it was a thriving shopping 
center once again. So, it works on multiple levels--not just on 
the flow and our ability to do our job, but it also has other 
aspects.
    So, do we need more fencing? Yes. Does it work? Yes. Do we 
need it everywhere? No. Is it the sole answer? No. It is part 
of an overall multilayered strategy. It is always kind of 
tongue in cheek--the fence is great, but if we do not have 
access roads to get to the fence, it is not as good.
    Chairman Johnson. The Deputy Chief mentioned that.
    Mr. Morgan. Right.
    Chairman Johnson. So, I hope you will work with this 
Committee, as we move forward, to identify where we do need 
additional fencing, how it should be designed, and how you can 
have the roads in between the fencing, so that we can, 
literally, relieve the pressure, from the standpoint of 
staffing.
    I guess the Ranking Member--I will continue then. Again, I 
want to go back to incentives, because--oh, he is back. I will 
let you go. Time is short.
    Senator Carper. Thank you so much. I have a couple of 
questions for the record. I am going to ask each of you--not 
now--about leadership, what led you to follow this path, and 
how we can encourage more women to follow the path that you 
have set out on.
    I have just a yes or no question. I think one of the 
questions that was asked was about fencing or walls. Where it 
is appropriate, sure, we need that. We want to make sure that 
it is done thoughtfully and in ways that it can actually 
contribute.
    You may have mentioned, Chief Morgan--I think somebody 
mentioned San Diego--the use of the walls there. We were able 
to take 100 Border Patrol officers, who otherwise would be 
doing that, and then deploy them in other ways. That is smart. 
But, what would also be smart is--all of these Border Patrol 
agents that are taking care of these kids, like day-care 
operators. That is not smart. And, one of the ways to reduce 
the need for doing that is for us to do our part to help make 
sure that all of those little kids and their bigger brothers 
and sisters actually have a future in Honduras, Guatemala, and 
El Salvador. That is a part of the solution as well.
    I think immigration reform is part of the solution, 
including the ability for workers in Honduras, Guatemala, and 
El Salvador to come up here, work for a while, go home 
unimpeded, and come back from time to time. I think that is 
part of it.
    I think technology is a part of it. We talked about the 
folks--the spotters on top of the hill. The idea of sending up 
unpiloted vehicles to be able to fly up there--identify these 
guys--if we want to bring in like some kind of direct fire on 
those, you can use that kind of technology, whatever. Figure 
out what works and do more of that.
    Part of what we are asking you to do is to tell us what you 
need more of and less off--and I would just hope that, at the 
end of the day, it actually includes the other side of the 
equation. The lesson we learned from Mexico--we used to have 
tons of people coming up here from Mexico. Most of the folks 
who came here for years were from Mexico. They do not come 
anymore. They are more going back into Mexico. There is a 
reason for that, and the reason for that is, frankly, they have 
a future now. They have hope. They have a solid middle class. 
And, we have been, I think, helpful in helping to ensure that 
happens in ways that benefit them--and I think us as well.
    Does what I have said make any sense? If you say no, I will 
leave. Does any of that make sense?
    Mr. Morgan. Everything you said made sense, sir.
    Senator Carper. All right. Deputy Chief Provost.
    Ms. Provost. Yes, I concur with you.
    Senator Carper. OK. Thank you. I want to conclude, if I 
can, just by thanking you both for being here. Thank you for 
your leadership. I said to the Chairman that you are a breath 
of fresh air. We very much appreciate your leadership and the 
way you approach this.
    As the Chairman mentioned earlier on, this is, I think, 
probably, the last hearing where I will be the Ranking Member--
just to say how much I have enjoyed working with him and all of 
our colleagues. I am not going to get off of the Committee. I 
will still be, I guess, the senior Democrat, but I will be the 
Ranking Member on the Senate Committee on the Environment and 
Public Works (EPW). And, I look forward to being very active in 
supporting all of my colleagues on this Committee. But, I want 
to acknowledge the help of, certainly, our Minority staff, led 
by Gabrielle Batkin and led by John Kilvington. But, I also 
want to acknowledge the hard work of the Chairman and the folks 
that he has helped lead. I cannot mention them all, but I want 
to thank each of my 
staff--and our staff and his staff--for the way that they 
worked together--are still working together, even as we gather 
here, today--still working together to try to get things done 
before we adjourn.
    I particularly want to thank Chris Hixon. I want to thank 
Gabby D'Adamo and Patrick Bailey. I want to thank David Luckey, 
who has left. He left us, I think, just a week or two ago, and 
came and said goodbye. I also want to thank Brooke Ericson, 
David Brewer, and all of the other folks on the Chairman's 
staff who have contributed in this Congress and for our 
country.
    Finally, I want to thank Laura Kilbride, the best third 
baseman I have seen on a Congressional softball team in all of 
the years I have been here. She has an arm like a rifle, and as 
long as she is on our team, we are in good shape. But, the 
Chief Clerk and her team, they keep our Committee running 
smoothly and efficiently. It has been a real joy, and I think 
we have done good work together. And, I look forward to doing a 
whole lot more.
    Thank you.
    Chairman Johnson. Thank you, Senator Carper. It would be 
nice if everybody had nice simple names to pronounce, like 
Carper. [Laughter.]
    But, again, I do want to thank both of our witnesses for 
your many years of service to this Nation--it is truly 
appreciated--for your thoughtful testimonies, and your 
thoughtful answers to our questions. And, I truly look forward 
to working with you, certainly in the next Congress, and over 
the next few years. So, again, thank you.
    That being said, the hearing record will remain open for 15 
days until December 15 at 5 p.m. for the submission of 
statements and questions for the record.
    This hearing is adjourned.
    [Whereupon, at 12:05 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
